<html>
<title> - THE FUTURE OF EMPLOYMENT FOR PEOPLE WITH THE MOST SIGNIFICANT DISABILITIES</title>
<body><pre>[Senate Hearing 112-868]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-868

     ROUNDTABLE: THE FUTURE OF EMPLOYMENT FOR PEOPLE WITH THE MOST 
                        SIGNIFICANT DISABILITIES

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING THE FUTURE OF EMPLOYMENT FOR PEOPLE WITH THE MOST SIGNIFICANT 
                              DISABILITIES

                               __________

                           SEPTEMBER 15, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE

87-416 PDF               WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001
















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania   RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      

                    Daniel E. Smith, Staff Director
                  Pamela Smith, Deputy Staff Director 
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)


















                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, SEPTEMBER 15, 2011

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................    11
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    21
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    26

                               Witnesses

Julie Petty, Past President, Self-Advocates Becomimg Empowered, 
  Fayetteville, AR...............................................     5
Deb Pumphrey, Parent Advocate, Ottumwa, IA.......................     6
Ruby Moore, Executive Director, Georgia Advocacy Office, Decatur, 
  GA.............................................................     7
Katy Beh Neas, Senior Vice President, Government Relations, 
  Easter Seals, Office of Public Affairs, Washington, DC.........    10
Michael Pearson, President and Majority Shareholder of Union 
  Packing, LLC, Yeadon, PA.......................................    13
Fred Schroeder, Ph.D., Former Commissioner of the Rehabilitation 
  Services Administration, Department of Education, Interwork 
  Institute, San Diego State University, San Diego, CA...........    15
Jonathan Young, Ph.D., Chair, National Council on Disability, 
  Washington, DC.................................................    16
Janet Samuelson, President and CEO, ServiceSource, Alexandria, VA    19

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Advancing Employment Connecting People (APSE)................    35
    National Disability Rights Network (NDRN)....................    36
    National Industries for the Severely Handicapped (NISH)......    37
    ServiceSource................................................    38
    Laura Walling, Director, Advocacy and Legislative Affairs, 
      Goodwill Industries International..........................    42
    Letters:
        To Senator Harkin from Deb Pumphrey......................    43
        To Senator Harkin and Senator Enzi from the Consortium of 
          Citizens with Disabilities Employment and Training Task 
          Force..................................................    44

                                 (iii)



 
     THE FUTURE OF EMPLOYMENT FOR PEOPLE WITH THE MOST SIGNIFICANT 
                              DISABILITIES

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2011

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
Room 106, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Mikulski, Merkley, and Franken.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order. Last week, President 
Obama made an impassioned plea for the Congress to focus our 
attention on the jobs crisis in America. On Tuesday, the Census 
Bureau reported that nearly one in six Americans were living in 
poverty, with the number increasing each year for the last 4 
years. Even more depressing is that about one in four children 
in America are now living in poverty. I might remind people 
that the poverty level for a family of four, two adults and two 
children, is about $22,000 a year. That's about $425 a month.
    The number of Americans in severe poverty is also going up, 
and that is those living at or less than half of the poverty 
rate. That means a family of four making $11,000 a year or 
less. That's how bad things are.
    Unemployment is stubbornly holding over 9 percent. I think 
the President is correct that we've got to move ahead on a jobs 
bill. But today we'll focus the HELP Committee's attention on 
an often overlooked piece of the employment problem, or 
unemployment problem, and that's the shockingly low labor force 
participation of workers with disabilities.
    According to the Bureau of Labor Statistics, as of August 
there were more than 15 million adults with disabilities in the 
United States between the ages of 16 and 64, working age. Of 
this group, less than one-third were participating in the labor 
force; over two-thirds not working. So you say, ``OK, the 
unemployment rate in America is 9 percent, but the unemployment 
rate for people with significant disabilities is about 60 
percent, 60 to 66 percent.''
    In the last 3 years, statistics show us that people with 
disabilities have been leaving the labor force at a rate of 
more than 10 times the rate of the nondisabled population. In 
other words, as people have been laid off and jobs decreasing, 
those with disabilities are being let go at a rate 10 times 
that of the nondisabled population.
    This is unacceptable. I might even go so far as to say I 
think this is gross discrimination. We need to take action to 
change this trend.
    This roundtable today is meant to look ahead. I am an 
optimist at heart. I do believe that we will be coming out of 
the recession, that we will increase employment. The gears will 
start to work, sooner, I hope, rather than later. I just want 
to make sure that as employment starts to go up, that if the 
people with disabilities have been leaving the labor force at 
10 times the rate of the nondisabled, they should be rehired at 
10 times the rate of people without disabilities.
    I want to look ahead and think about how we set up systems 
and do things that really get people with disabilities employed 
in gainful employment. For today's roundtable I want to focus 
on an important element of the disability community, people who 
have significant disabilities and who often experience multiple 
barriers to employment.
    In March, we held a HELP Committee hearing focused on 
people with intellectual disabilities, and some of the biggest 
barriers to success in the labor market for people with 
significant disabilities are what? Low expectations, 
discriminatory attitudes, lack of early life preparation for 
gainful employment, and I think just, quite frankly, a failure 
of imagination on how we can construct systems for gainful 
employment for people with significant disabilities.
    The purpose today is to hear from a diverse group of 
experts about how they would improve our education, our 
workforce development, our human service programs, so that 
people with the most significant disabilities who want to work 
are able to find a place in the labor market and have a career 
that works for them.
    It's often said that it's not enough just to give someone a 
job that's a dead-end street. There's got to be some hope for 
improvement and advancement as life progresses.
    I'm working with Ranking Member Enzi and other members of 
the committee to use this roundtable and other hearings to 
inform a multiyear disability employment initiative. My goal is 
to make the policy changes necessary, engage with leaders in 
the business and disability community so that the size of the 
disability workforce will grow from 4.9 million to 6 million by 
2015. We sort of set that goal, but that's not just mine. The 
U.S. Chamber of Commerce has also set that goal.
    I want to make sure that we don't leave behind a community 
of people with significant disabilities and that they have to 
be brought along as part of that increase. As we approach 
today's topic, I want to keep in mind the diversity of needs 
and experiences in the disability community. For purposes of 
today's discussion, I'm focused on people with the most 
significant disabilities because they don't always benefit from 
traditional disability employment strategies. For example, some 
sources have estimated that the labor force participation rate 
for people with intellectual disabilities is below 25 percent; 
for people with severe and persistent mental illness, below 10 
percent.
    Moreover, I believe that policies that work for people with 
the most significant disabilities--let me repeat that--polices 
that work for people with the most significant disabilities, 
things like workplace flexibility, assistance with starting, 
early involvement in secondary school, sustaining micro-
enterprises, tailoring the elements of a job to the capacities 
and interests of the worker, when you look at all those, those 
also benefit workers with less severe disabilities, or even 
people without disabilities, sort of like universal design. 
Universal design helps everybody.
    In addition, people with the most significant disabilities 
have the highest participation rates in our most expensive 
safety net programs--Medicare, Medicaid, Social Security 
Disability Insurance, SSI--which means if we're successful in 
helping this population achieve some economic self-sufficiency, 
then we have some savings on the government side.
    Senators Murray, Enzi, Isakson and I have been working on a 
bipartisan reauthorization of what we call WIA, the Workforce 
Investment Act, and we've sought to make changes in the 
Vocational Rehabilitation title of that bill to strengthen VR's 
emphasis on competitive, integrated employment, and prioritize 
services for young people with disabilities as they enter the 
workforce for the first time.
    Today's roundtable hopefully will inform our ongoing 
efforts to reauthorize the Workforce Investment Act, to spur 
new thinking that can inform other legislative efforts like the 
President's jobs bill, and other bills.
    Let me introduce our panel and we'll kick it off.
    Ruby Moore is the executive director of the Georgia 
Advocacy Office, which is the P&A, protection and advocacy 
agency for people with disabilities in Georgia. Ms. Moore has 
worked for 35 years advocating for and running competitive, 
integrated employment programs for people with significant 
disabilities. Thank you for being here.
    Next we have Katy Beh Neas, vice president for Government 
Relations for Easter Seals. Katy is a disability policy expert 
representing a national network of Easter Seals affiliates that 
operate a wide range of employment programs for people with 
significant disabilities. I might add that in her earlier life 
she was a member of our staff on this committee.
    Michael Pearson is the president and majority shareholder 
of Union Packing, LLC in Yeadon, PA. Mr. Pearson brings a 
perspective of a successful small business owner who has made a 
real effort to hire a diverse workforce, including people with 
disabilities. Thank you for being here.
    Next we have Julie Petty of Fayetteville, AR, a national 
leader in the self-advocate movement. She is past president of 
the Self Advocates Becoming Empowered, a national membership 
organization that brings the first- person perspective of 
individuals with significant disabilities to public policy 
discussions. Julie currently works at Partners for Inclusive 
Communities, the Arkansas University Center of Excellence in 
Developmental Disabilities. Thank you for being here.
    And Deb Pumphrey of Ottumwa, IA is the parent of a 27-year-
old with multiple and complex disabilities. Deb is a parent-
leader and advocate in Iowa who has worked hard to find 
employment that works for her son. She currently chairs the 
board of Tenco Industries, which operates a community-based 
recycling program that employs her son and other people with 
significant disabilities in the Ottumwa area. Thank you for 
being here.
    Next we have Janet Samuelson, the executive director of 
ServiceSource, an agency that serves people with disabilities 
in nine states and the District of Columbia. Ms. Samuelson 
brings over 35 years of experience in the disability field and 
leads a nonprofit that provides employment and day treatment, 
training and support services to over 19,000 individuals. Thank 
you for being here.
    And Fred Schroeder. Fred is not here yet. He's en route. 
Well, I'll introduce him even though he's en route. Dr. Fred 
Schroeder is an expert in vocational rehabilitation, having 
served as the Commissioner of the Rehabilitation Services 
Administration under former President Clinton. Dr. Schroeder 
took steps during his tenure at RSA to make clear that the goal 
of the public vocational rehab program is competitive, 
integrated employment, and to hold rehabilitation counselors 
accountable for achieving that goal.
    And, last but not least, we have Dr. Jonathan Young, who 
currently serves as chair of the National Council on 
Disability, an independent Federal agency advising Congress and 
the President on public policy. Dr. Young brings a perspective 
of an attorney and historian who has chronicled the history of 
the disability rights movement and has advocated for policies 
that advance the goals of the Americans with Disabilities Act, 
equality of opportunity, full participation, independent 
living, and economic self-sufficiency. Thank you for being 
here, Jonathan.
    Thank you all for being here. I'd like to now begin what I 
hope will be an open, free flowing discussion on this issue. 
I'd like to lay out two topics to organize our conversation.
    First, what is the right spectrum of employment options 
that will address the needs of workers with the most 
significant disabilities?
    Second, what are the best proven strategies for workers 
with the most significant disabilities to increase their 
earnings over time and achieve career advancement?
    To help frame the conversation, I want to offer a working 
definition, I hope, and I can be corrected or this can be 
amended by anyone here. But what is a working definition of 
``the most significant disabilities'' in the context of 
employment? For purposes of today's discussion, I would suggest 
that people with the most significant disabilities are people 
for whom competitive employment has not traditionally occurred, 
has been interrupted, or is intermittent because of the 
disability; or who, because of the severity of the disability, 
need intensive or extended support services to work 
competitively. Now, if you have other views on that and other 
things to add, maybe I didn't cover it all.
    We have our introductions. I laid out the two sort of broad 
areas that I would like to discuss, and I'd just reiterate one 
of them. What's the right spectrum of employment options that 
will address the needs of workers with the most significant 
disabilities?
    I will open questioning with Julie Petty. Before we talk 
about the spectrum of employment options, Ms. Petty, what goal 
should we have regarding employment for people with 
disabilities, especially those with the most significant 
disabilities? What goals should we have? From your perspective 
as someone who has a disability, who advocates, what is it that 
we should be striving for? That's a sort of general, open-ended 
question.

   STATEMENT OF JULIE PETTY, PAST PRESIDENT, SELF-ADVOCATES 
              BECOMIMG EMPOWERED, FAYETTEVILLE, AR

    Ms. Petty. Thank you for having me today. I think you 
talked a little bit about it earlier when you talked about the 
discrimination. First we have to change attitudes about people 
with intellectual and developmental disabilities. We have to 
think that everyone can work. Now, that might not be the same 
for all people with disabilities, but everyone can work.
    We have sheltered workshops all over the Nation. I know a 
lot of my friends work there, and they've been there for many, 
many years because people don't believe in them. People don't 
think they can do much, but they've never been given the 
opportunity, and I really do believe it's an attitude change. 
If the attitude changes, then the service system for the 
employers and even from ourselves, we have to believe in 
ourselves. We know that the sheltered workshop model is an 
outdated model and that things can be done differently. 
Everyone can work means that people have individual employment 
plans.
    I would like to share with you a story about a woman in 
Oregon who was in a sheltered workshop, and she has severe, 
significant disabilities. She uses a wheelchair, and all she 
did all day is bang her fist on the table and yell. Well, 
somebody got a clue and decided this might not be the best 
place for her. So they found a factory in Oregon and they 
created a customized button that she could hit that would run 
the machine, and she could yell all she wanted because nobody 
else could hear her. That is one place that we need to think 
outside the box.
    The Chairman. That's why I kind of referred to it as having 
imagination.
    Ms. Petty. Yes, sir. And I would also like to share with 
you another reason why we should strive for employment for 
people and that is because of quality of life. If you have a 
real job, you've got real money. I have friends with 
significant disabilities who don't get to go to the movies, who 
don't get to go many places. And then you have the service 
providers who work for these organizations who go off to the 
Caribbean or wherever they want to go. So the quality of life 
overall is healthy. It's healthier for people to have a job.
    I've been in many sheltered workshops all over the Nation, 
and people aren't smiling, people aren't happy. One of my 
friends in Arkansas, his sister got mad because he got food out 
of the snack machine all the time. Well, he doesn't have a lot 
to do during the day, so he goes to the snack machine.
    When we have a real job and we have employment that is 
integrated--we also can develop relationships. I have a lot of 
friends with disabilities, but I have a lot of friends without 
disabilities too, and I met them through work and through other 
organizations.
    When we are able to contribute to society, that's just 
another way for us to be treated with dignity and respect, and 
Americans with disabilities deserve to be treated with dignity 
and respect. And those are just some of the ways we can help 
people get integrated employment and be happy and live a happy 
life. Thanks.
    The Chairman. I'm going to move from you right to your 
neighbor to your left. Deb, you're the mother of a son with 
significant disabilities. I think Ms. Petty just made a very 
profound statement about work and the quality of life and 
friendships, all the things that go with having employment that 
challenges you and gives you a pathway upward.
    Again, what are our goals, or what are our expected goals 
for employing persons with significant disabilities? What 
should we be looking at? What kind of goals--or if that's not 
the right question for you, just go ahead and tell us how you 
feel about this.

    STATEMENT OF DEB PUMPHREY, PARENT ADVOCATE, OTTUMWA, IA

    Ms. Pumphrey. Thank you for having me here today, first of 
all. And second, I guess my goal always for my son, who has 
significant intellectual disabilities, was for him to work in 
our community. I have come to realize, though, that without the 
significant and intensive amount of support that he would need, 
he is not able to do that. He functions at about a 4- to 5-
year-old level, and to have a person with that level of 
intellectual disability working in the community without the 
intensive support just has not been possible with Joshua.
    He works in a sheltered workshop, and I believe that that 
spectrum of employment needs to be there for persons with 
significant disabilities, just for the support that he 
requires. Inside the sheltered workshop he does have 
employment. He is shredding paper on a pretty regular basis 
with a one-on-one staff person that I am able to employ through 
the Consumer Choice Options Program through the Intellectual 
Disabilities Waiver. So he has his one-on-one support person 
who is there a few hours a week for him to have employment.
    We've had to be creative in how we've looked at his 
employment opportunity, and I'm here to tell you that the 
difference in the quality of his life as a result of that few 
hours a week of employment is significantly different. We've 
seen a reduction in his behavior problems. He's just extremely 
content with life at this point. So just a few hours a week 
have made a very significant difference in his life, and in 
order to do that we've had to be creative and look outside the 
box.
    The Chairman. How long has he been doing this? How long has 
he been at the workshop?
    Ms. Pumphrey. He's been at the workshop since he graduated 
from high school, so about 5 years.
    The Chairman. Five years?
    Ms. Pumphrey. Yes. We've been able to do the employment 
from inside the workshop for probably about a year. We had to 
get creative.
    The Chairman. OK. Thank you.
    I already introduced Dr. Fred Schroeder. Welcome. I'm sorry 
you got held up someplace, wherever that was. I don't know if 
it was traffic, but things do get held up around here. But 
welcome, Dr. Schroeder, we just started our panel discussion.
    I just want to say again, I kind of want a free-flowing 
discussion. I don't want to have to always jump in and 
recognize somebody. If you have something to add, if you want 
to say something, we have an old process here where you just 
take your nameplate and turn it up like that, and I'll call on 
you.
    We're coming back to Ms. Petty right away.
    I want to get other people involved in this discussion now. 
Go ahead.
    Ms. Petty. I just wanted to make a point to Ms. Pumphrey, 
one of the reasons her son has that support in the workshop, 
why can't we spend the money to get him support in the 
community? Because there are many recycling areas, and I'm just 
wondering why did there have to be a segregated place?
    The Chairman. OK. Your question basically is if Deb's son 
needs all the supportive services for--was it 4 days a week or 
something you said?
    Ms. Pumphrey. He's only working about 2 hours a week, 
actually.
    The Chairman. If he needs all that for a sheltered 
employment, you're saying why shouldn't he have that supportive 
services for nonsheltered employed?
    Ms. Petty. Right.
    The Chairman. OK, fair question. Any observations on that? 
Again, I'm still getting back to the right spectrum of 
employment options. I'll be provocative here. There are some 
who are saying we should have no sheltered employment 
whatsoever. There are others that say that sheltered employment 
is a necessary part of a spectrum of different employment 
opportunities.
    What we're trying to do here and what I'm trying to do in 
the WIA bill is to change the default position. The default 
position for people with significant intellectual disabilities 
in the past has been sheltered workshops. I want to change that 
default position so that it is integrated competitive 
employment.
    However, there may be some who, through their own choice, 
their family choice, their own individual choice, may feel more 
comfortable, more fulfilled in sheltered employment. Who am I 
to deny that to someone that may feel more of a kinship there, 
more of an ability to grow, and maybe we need to talk to those 
that have sheltered workshops. I don't know. I don't know all 
the functioning of it, but get them to provide pathways of 
growth for people that are working there.
    And since we've talked about that, I don't know who had 
theirs up first, but I'll go with Mrs. Moore, and then I'll go 
with Ms. Neas.

 STATEMENT OF RUBY MOORE, EXECUTIVE DIRECTOR, GEORGIA ADVOCACY 
                      OFFICE, DECATUR, GA

    Ms. Moore. Thank you, Senator Harkin. I appreciate the 
perspectives of my two colleagues so far, and maybe I can help 
a little bit to bridge the gap.
    I think when we're trying to advance in anything, we're 
trying to make things better, we're trying to help people have 
good lives, trying to actually have a piece of the American 
dream, the American way, that we start with what we know and we 
start with our strengths. And our strengths, what we know is 
that people with very significant disabilities are working in 
the community, are working in competitive and integrated jobs, 
real jobs for meaningful wages.
    We know that, and we have decades of research and 
demonstration now of what people are capable of, and I'm well 
aware that often we have knowledge in our field from an 
individual perspective about how to go about supporting people 
with very significant disabilities to have great jobs that 
isn't necessarily common knowledge across all of the 
communities where people live and may not be immediately 
available.
    But what we do know is that we've just learned a lot that 
allows us to say we really don't need to create special places 
for people with disabilities that are segregated and that are 
paying sub-minimum wages. I don't say that lightly, and I 
recognize that if we're moving away from that, we have to do 
that in a very planful, measured, careful way to not create an 
adverse impact on people, and for people to actually have real 
choices.
    One of the problems with heavily investing in segregation 
is that it takes away choices for people. So I'll just speak 
very briefly on some of the things we've learned. We've learned 
a lot in the last 35 years. If we're talking about sub-minimum 
wages, we've learned a lot in the last 73 years.
    The Chairman. Right.
    Ms. Moore. Some of the ideas that got advanced in order to 
let veterans returning from World War I coming back to an 
industrial manufacturing economy don't necessarily hold today 
as what people with significant disabilities need. But we've 
learned a lot about how to discover what people are good at, 
what they love, as I like to say what makes people sparkle and 
shine, their unique contributions, their interests, their 
talents, their support needs, the environments in which people 
do well. We've learned a lot in terms of the advances with 
assistive technology.
    You talked about workplace flexibility, Senator. I think 
you're precisely on point with that. We've learned a lot about 
how to customize and negotiate relationships between potential 
employees with significant disabilities, even just people who 
have a very limited frame of reference for choosing work or 
knowing what they want to do, and employers who have unmet 
needs, even in this economy, and being able to blend those two, 
those relationships together in a way that works for the 
employer and the employee.
    And, Senator, to your point, you're precisely right. I'm an 
employer. Seventy-eight percent of my employees have 
disabilities, and the very things that we do to performance 
enhancements, restructuring the environment, creating jobs that 
meet our needs but I didn't have a job description for before I 
met the person who could do it, it's that kind of inventive and 
imaginative process that allows the entire workforce to do 
better, not just the person with a significant disability.
    I'll just move along because I know everybody wants to 
talk. But I would like to just say that when we're thinking of 
a spectrum of services or options, I don't think the spectrum 
should be predicated on an old notion that people aren't ready 
to work. People are ready to work. And even in this economy, 
employers still have unmet needs.
    When I think of the spectrum, I think what's culturally 
normative, even culturally valued. How did any of us learn what 
we were interested in, what we might be able to do, how we 
might be able to make a unique contribution? I know that I 
didn't grow up saying I think I'll be a protection and advocacy 
system director. I don't know when you decided or discovered or 
figured out that you wanted to be a U.S. Senator and to shape 
national policy and help Americans have good lives, but I 
suspect it was a whole series of life experiences.
    The spectrum begins, as you pointed out, it's a lifespan 
kind of spectrum. It's not a spectrum of boxes that we have to 
move through in order to finally get a real job. You start with 
supporting young people and their families early on to say 
what's the best way to teach my child with a disability, along 
with my other children if I have other children, how to have a 
work ethic? It begins by doing chores. It begins by getting 
support to say how do I include my child with a significant 
disability to be part of this family in a way that they have 
responsibilities? That's how you start beginning a work ethic.
    In school the teacher turns to certain kids and says will 
you help out with this. This is where people learn how to solve 
problems, work as a team. These are all the social skills you 
need in order to be successful on the job, which turns out to 
be more important even than being noticeably, objectively 
productive.
    Then there are summer jobs and there are internships, and I 
think we should encourage and support schools to give people 
real-life work experiences regardless of type or level of 
disability before they graduate from school, and then to create 
that path to employment that doesn't begin with the presumption 
that you have to get ready. You will have been getting ready.
    I think as we go on today we'll probably talk a lot about 
different kinds of models that have existed for a long time, 
and our best practices, customized employment, supported 
employment, which we'll talk more about probably, actually grew 
out of and on the shoulders of what people have learned in 
sheltered workshops. So we're not dismissive of services that 
have been around for a long time, but it is time to move beyond 
segregation and sub-minimum wages.
    The Chairman. I want to ask Ms. Neas to respond also. But 
it seems that voc rehab that we've all been very supportive of, 
and they do a great job, but it came to my attention I guess in 
the last few years that voc rehab has been focused mostly on 
people with physical disabilities and has not been focused on 
young people with intellectual disabilities and working with 
them at an early stage. Like you say, the spectrum is not a 
bunch of boxes. It's sort of a continuum, and working with 
young people with intellectual disabilities to challenge them, 
to help them build their relationships, help them to think 
about what their future is going to be and what kind of work 
they want to do and what they might find challenging, what 
they're capable of doing, that's just all part of it, and we're 
trying to get voc rehab looking at that.
    Ms. Moore. Good.
    The Chairman. Ms. Neas.
    Ms. Neas. Thank you.
    The Chairman. You're so soft-spoken, you might pull that 
in, Katy, a little bit. There you go. Thanks.

 STATEMENT OF KATY BEH NEAS, SENIOR VICE PRESIDENT, GOVERNMENT 
RELATIONS, EASTER SEALS, OFFICE OF PUBLIC AFFAIRS, WASHINGTON, 
                               DC

    Ms. Neas. I want to just add a couple of things, and I 
totally agree with what everyone has said. I think one of the 
challenges, at least from my perspective, on this issue is I 
believe everybody's got a very valid point in this discussion.
    For me the thing that's most important is we need to build 
on the investment that we've made in the early intervention and 
special education services that many of these young people have 
gained. Are they getting what they need from the school system 
to make them ready for the world of work? I would argue, 
unfortunately in too many instances, the answer is no.
    We are seeing in our programs kids that are exiting the 
school system without the ability to have an understanding of 
the concept of productivity and that if you're going to be 
successful in an integrated community-based setting, you need 
to be able to demonstrate the productivity as another person 
who could do the same job.
    The Chairman. You mean exiting the school system.
    Ms. Neas. Right. And the other thing that we're hearing 
from our affiliates is this concept of taking feedback and 
instruction from your supervisor, that those are two places 
that we're seeing kids coming out of school not having the 
skill set that they need, and that's something that we really 
want to have be a part of their education before they leave.
    The other thing we have seen over time, and I think 
especially in the last 20 years, a whole change of expectations 
about what people with disabilities can and cannot do, starting 
in 1975 with the start of IDEA, where kids had a right to be in 
the school. In 1997, we clarified that right. That meant you 
had the right to be taught the same stuff as your nondisabled 
peers. What a concept. You could be there but not be educated. 
That still, unfortunately, was a challenge in 1997.
    In 1986, we established the early intervention program, 
infants and toddlers getting a really good start, and the other 
thing of educating their parents that it was OK to have high 
expectations for their child. Again, it sounds simple to say 
now, but it was transformative. If you talk to parents whose 
kids have benefited from early intervention, as you and I did 
earlier this summer, kids that had very little skill sets when 
they were 1 and 2 that are high school graduates looking 
forward to their future, ideas about their careers, there's a 
connection between those two things, and we need to really 
enforce those concepts that we have to help families understand 
to have high expectations. We have to give kids the skills that 
they need to be successful, and that those are very important 
predictors for how they're going to be successful in the world 
of work.
    I think the other thing I will say, and let other people 
talk, is this whole concept of job exploration and internships, 
and one of the things that especially a number of our 
affiliates are doing for kids that are leaving high school, 
trying to figure out what they want to do, spending a month 
over the course of 6 months in six different places to see do I 
like working at Kinko's, do I like working at a hospital, do I 
want to work in the grocery store. Most of us learn what we 
like by giving it a shot. That needs to be true for people with 
disabilities, and they need the supports that they need.
    One of the things that we've been very frustrated with is 
finding internships for people who need very significant 
supports. It's one thing to find an internship for someone with 
a disability who just needs an accommodation. It's another 
thing for someone who needs the kinds of supports to do the 
job, and I think that's a place where we'd really like to see 
some leadership from employers to help make those opportunities 
more available.
    And then I just did the math, and I had no idea what I 
wanted to do when I grew up, and I didn't really know it until 
I got an internship in my congressman's office in 1984, and 
that absolutely shaped my destiny. I would say for the rest of 
us, internships, job exploration was how we figured out what we 
liked to do and whether or not we had any aptitude in it, and I 
think that's something you don't know until you try, and I 
really think we need to create more opportunities for people to 
be able to try more things with the supports that they need to 
be successful.
    The Chairman. Very good. I want to talk about that program 
that we looked at this summer, because that's what it was, 
young people trying different things.
    I want to go to Mr. Pearson. But before I do that, I want 
to recognize again someone that has just, for all the years 
I've known Senator Mikulski, even when she was a congresswoman, 
I didn't know you in Baltimore, but I knew you when you came to 
Congress. She's just been someone who has been one of the great 
supporters of moving the concept of how we treat people with 
disabilities, how we integrate them in our schools, in our 
environment, providing work opportunities.
    I'm just proud and privileged to be her friend, and she is 
the ranking person on this committee, Senator Barbara Mikulski.

                     Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Senator Harkin.
    Picking up on what Kathy said, I'm sitting next to a legal 
aid lawyer. I'm a social worker, started out as a child welfare 
worker, but I didn't intend to do that when I was 9 years old. 
I saw a movie about Madame Curie, and I wanted to be a 
scientist, to win two Nobel Prizes and marry a Frenchman.
    [Laughter.]
    I kind of did that work that you said, which is try it out. 
I was klutzy in science but now fund a lot of the science 
programs. We're all friends, and I think we see this as a bit 
of the good news is that people with so-called disabilities are 
often underestimated in terms of their capability and their 
competency. There's a tendency to either ghettoize or want to 
feel sorry for people, and so much has changed, as you've said.
    I want to thank Senator Harkin for his ongoing advocacy. 
And we need to look at how the fact that one size is not going 
to fit all in terms of our regs. I believe that the digital 
world, the digital economy has changed everything, providing 
opportunities for people that they might not have had in the 
analog or heavy-duty manufacturing world that our economy was 
once built on.
    We are beyond the sheltered workshop. We're just beyond 
that now because our economy has changed, and I know from 
within my own State I have people with varying views. I love 
the fact that the National Federation of the Blind is 
headquartered in Maryland and in Baltimore. I love the fact 
that they picketed me to get my attention on this issue. As an 
old organizer, it was a great approach. And we need to look at 
the issues between people with one set of challenges in their 
life and in the others, particularly around issues like autism, 
intellectual disabilities, and chronic mental illness where 
there might be an ongoing history of schizophrenia.
    What I see--and I'll just stop here--on one hand, by being 
on the Intelligence Committee, I've visited a variety of 
agencies, and boy, what a surprise, and here's the surprise, 
not that we weren't doing a good job to stop bad things from 
happening with us. But when I went to the National Geospatial 
Agency, our eye in the sky, there were a significant number of 
people with severe significant hearing loss that were there 
standing sentry to protect America. They didn't have to hear. 
They had to see. They were full-time employees, 12s, 14s, 15s, 
heading to the senior executive corps because of what they 
could do.
    If you went to the National Security Agency, which is again 
our listening post on the world, our code-breaker monitor, 
there were people with significant visual impairments working 
there because they didn't have to see. They had to be able to 
hear, and they had to be able to do math to break the codes. 
Doing math had nothing to do with whether you could see or not.
    And when I went to one of our private sector sites, as I 
looked at a mission control place, somebody couldn't get up to 
shake my hand because he'd had amputations because of wounds in 
Iraq, but he could still be there fighting on cyber security 
because he had the right training and the right stuff and was 
earning full-time wages to do a full-time job protecting 
America.
    We're in a different world, and I'd just use that because 
you say, ``well,'' but then at the same time we have people in 
our community and in our own families with autism, intellectual 
disabilities. They want to work. Work is often their most 
important part of self-identity, structure, and the ability to 
be independent, not only from a financial standpoint but that 
sense of competency.
    So when we look at it, some are going to need help. Some 
might even need subsidies. Some might need subsidies through 
different kinds of wages. But I think Washington and the way we 
go about it, from vocational ed to vocational rehab, we are in 
a different economy. We need to seize the concepts of the 
economy and then make sure we are not still operating with a 
1950 manufacturing analog mentality.
    Between meds and the digital world and all the other 
things, I think we can have a breakthrough that is fair and 
just, and just listening to you is one inspiration, and I want 
to thank you for the work you do every day. It is inspirational 
leadership.
    And then the other, how do we parse this, and in parsing 
it, we don't ghettoize.
    Thank you for what you do, and let's work together and try 
to break this code of economic justice and economic reality.
    The Chairman. Thank you very much, Senator Mikulski, social 
worker or legal aid lawyer.
    Senator Mikulski. Born-again do-gooders.
    [Laughter.]
    The Chairman. You're right, I never thought I'd ever be a 
Senator.
    [Laughter.]
    Never heard of it at that time.
    Mr. Pearson, here you are. You're a small business owner. 
You have a diverse workforce. We sort of got off it a little 
bit, but that's OK, the spectrum of opportunities and how you 
see it as a business owner yourself.

     STATEMENT OF MICHAEL PEARSON, PRESIDENT AND MAJORITY 
         SHAREHOLDER OF UNION PACKING, LLC, YEADON, PA

    Mr. Pearson. First of all, thank you for inviting me. And 
I've had the misfortune or good fortune of having worked in 
corporate America, been a small business owner, and I've seen 
the spectrum, and I believe there are opportunities, and often 
we as business owners or leaders of businesses are not open to 
opportunities we can offer.
    And to our advantage, we begin to open up and employ 
individuals, we get loyalty, we get folks who come to work on 
time, and we get a competitive group that add value to our 
enterprise. My experience, while I don't have experience with 
those with severe disabilities, I have been very successful 
employing individuals who had some learning differences.
    Nineteen percent of my workforce--and we're 70 employees 
making fast-food packaging for some of the entities around the 
country. I'm sure you've all had some nuggets or some form of 
fast food in our packaging. My workforce, my managers, at first 
were very apprehensive, did not embrace bringing on these 
individuals, and were fearful. But with education and 
commitment we soon realized, wow, they can do the job, and they 
can do it well. And I think that fear and apprehension is met 
in several sectors of the employer spectrum, and it's important 
that education of employers, to go back to Ms. Petty's 
comments, that all of us need to learn something.
    And in small business and mid-size business, we are 
especially equipped with the ability to make those 
accommodations and changes that can facilitate successful 
employment for individuals with disabilities.
    The Chairman. Let me ask you this. Do any of the 
individuals that work for you require supportive services at 
any point during the workday? Do they require any kind of 
supportive services like Ms. Petty was talking about, or I 
think Ms. Pumphrey was also talking about? Just sometimes 
people might need a little bit of support during the day, not 
all the time but once in a while they might need something. Do 
you have anything like that?
    Mr. Pearson. My employees have not, but they have received 
support when they first entered my workforce, and that was the 
coaching and the direction and some of the soft skills that 
lead toward individuals being successful, and that is a burden 
lifted off of my HR department, where these are individuals 
that come ready to work. And often that's supported by 
nonprofits or some entity that comes in and allows me as a 
business owner to have a pool of talent where I know those 
things have been screened and they're coming work-ready, and 
that relieves some of the fear.
    The Chairman. I have to make sure you meet Randy Lewis 
sometime with Walgreen's. That's a little bit bigger business 
than yours.
    Mr. Pearson. Yes, a little bit bigger than us.
    The Chairman. But I remember he made the point here at a 
hearing that when they first started hiring people again with 
intellectual disabilities, that they always showed up at work 
on time, they were very productive because they could focus on 
one aspect of their job and become very productive on it.
    On the physical disability side, I always use the example 
of my own brother who is now deceased but who was deaf, and Mr. 
Delavan, who had a manufacturing company in Des Moines in the 
early 1950s and started hiring deaf people. It was very noisy. 
Of course, that was before we had a lot of OSHA stuff and all 
that kind of stuff. So it was very noisy, but we found out that 
deaf people didn't care how noisy it was, and they could focus 
on these little machines and stuff that they were working on. 
They found them to be the most productive of their workers.
    Mr. Pearson. Senator, you're very right. As an employer, I 
should be concentrating on what people can do as opposed to 
what they can't do, and that begins to change my mind set. I 
can then farm for talent in places that are traditionally not 
areas we would look.
    The Chairman. Ms. Neas raised an interesting point, and 
that is about early intervention. I think a couple of you 
mentioned it. You mentioned it, too, Ms. Moore, about early 
intervention programs, and also giving people the opportunity 
to explore different job opportunities. That's what you and I 
saw this summer. I was very enthralled by that, where they 
could experience internship programs and find something that 
fit them, they liked it, they could do it.
    I think for many families with children with significant 
disabilities, it's tough enough just to get through the day and 
to get the kids to school, fight with the local school board to 
make sure that they get adequate instruction, and then a lot of 
high school kids have internships and do different things, but 
kids with significant disabilities hardly ever get that 
opportunity.
    We need to be looking at ways, and that's where I'm hoping 
that voc rehab now can begin to focus on young people to get 
them those kind of internships in the summertime and things 
like that, after-school jobs, so that they can test a variety 
of different avenues.
    Ms. Neas. I think to add to that, Senator Harkin, is some 
of the things that Mr. Pearson said, having people have the 
skill set to be in a work environment, not only have the 
competency to do the job.
    One of the things that we struggle with are people with 
significant autism or Asperger's who may be off the charts in 
terms of their intellectual abilities, you know, Ph.D. on top 
of Ph.D., but can't hold a job because they don't have the 
skill set, the personal human-to-human skill set. I think those 
are other things that are really important for us to make sure 
that kids leave high school having some guidance in that area 
so that appropriate behavior to the best of their ability is 
something that is a goal, and clearly there are going to be 
people for whom that is not going to be possible as a part of 
their disability. But I think trying to help those people who 
can acquire that skill is going to be very, very important.
    We are also doing a lot of work with returning Afghanistan 
and Iraq veterans. Most of these folks, whether they've had a 
physical injury, because so many of them have had brain 
injuries, they've got a lot of issues they didn't have before 
their service. One of the concerns that was raised earlier was 
about flexibility within a job, and we've got a protocol we're 
working on with employers that says that person may not be able 
to be there every morning at 9 o'clock. Is there a way to 
structure the job so that they can do the job if they show up 
at 11:30 or at 1 o'clock? And please don't fire them if they're 
late 4 days in a row because that's part of what they're trying 
to figure out, how they're sleeping, how they're managing the 
morning routine, and that it's those sorts of things that I 
think they are bringing to the environment. It's not just a 
luxury that people need but it really is an accommodation that 
people who are navigating a whole new world for themselves need 
in order to make themselves financially stable.
    The Chairman. I see Dr. Schroeder has his nameplate up. 
Fred, I recognize you.

STATEMENT OF FRED SCHROEDER, Ph.D., FORMER COMMISSIONER OF THE 
     REHABILITATION SERVICES ADMINISTRATION, DEPARTMENT OF 
EDUCATION, INTERWORK INSTITUTE, SAN DIEGO STATE UNIVERSITY, SAN 
                           DIEGO, CA

    Mr. Schroeder. Thank you, Senator, and thank you for 
holding this discussion, but also for your many years of 
leadership in advancing the dignity and integration of people 
with disabilities.
    As far as whether vocational rehabilitation under-serves 
youth with intellectual disabilities, I'm not familiar with any 
data to suggest that. There is a good bit of cooperation 
between vocational rehabilitation and school systems, and 
clearly transition is something that we all see as value-added 
and very important.
    One thing that I would highlight is that during the 1998 
amendments to the Rehabilitation Act, we added a provision that 
individuals who were receiving Social Security Disability 
Insurance or Supplemental Security income would be presumed 
eligible for vocational rehabilitation as a way of focusing the 
program on people who demonstrably have significant 
disabilities.
    I'd like to speak just a moment to the issue of the 
spectrum of options. In my view--and, of course, it's a very 
complicated issue. But in my view, having segregated work 
settings does not enhance the options for employment for people 
with disabilities but constricts the options. And I say that 
because as long as society is allowed to believe that there is 
a place over there somewhere for those people, people with 
disabilities will continue to suffer misunderstanding, which 
leads to diminished opportunities for integrated employment.
    I firmly believe in choice, but I do not believe that the 
majority of people who work in sheltered workshops are there 
out of choice. Clearly, there will be some. But when you have a 
two-thirds unemployment rate among adults with disabilities, a 
very difficult time finding integrated employment, and the only 
option that you can see available to you is a segregated 
facility, that's not choice. By definition, choice means 
options. And in order to facilitate those options, we have to 
look for creative ways to support integrated work.
    I don't want to belabor this concept, but I'd like to add 
just one additional thing, the attitudes. One of the problems 
that people with disabilities face is that we are regarded as 
broken people. We're regarded as less capable by virtue of 
disability. I don't think people think it consciously, and I 
certainly don't think they mean it with any ill will. But what 
that means is if I go to a facility, the presumption is that I 
will likely be somewhere below the productivity standard by 
virtue of disability, and that I might, if I am very skilled 
and work very hard, I might get up to the productivity 
standard, but doing what kind of a job? A job that at its high 
end is still a very low-paid job.
    I'm 54 years old. If I went to a facility and I was having 
to--I know of a facility that makes mattresses, and they're big 
and they're heavy, and as I say, my back is not what it used to 
be, would I be up to productivity? I don't know. Likelihood 
would be not. But even if I were, I'd be making $7.25 an hour.
    The need for customized employment, the need for employment 
that does not emphasize the person's disability but the 
individual's strengths and interests, that is the underpinning 
of the real solution to the unemployment and under-employment 
of people with disabilities. And if I go to a facility and by 
nature of what contracts they have, they have two or three or 
four different jobs, that is such a narrow spectrum, and on top 
of that those jobs again, by and large, are very low skilled, 
low-wage jobs.
    I believe that while there are people for whom segregated 
work is something that they value, I just want to reiterate 
again, I don't believe that the vast majority of people with 
disabilities, if given the option for integrated work, would 
select segregation.
    The Chairman. All right. Thank you, Dr. Schroeder.
    Jonathan Young, Dr. Young.

STATEMENT OF JONATHAN YOUNG, Ph.D., CHAIR, NATIONAL COUNCIL ON 
                   DISABILITY, WASHINGTON, DC

    Mr. Young. First of all, Senator Harkin, thank you for 
convening this gathering, and thank you for your longstanding 
leadership for our community. As a Maryland resident, I also 
want to thank Senator Mikulski for her longstanding leadership.
    There have been a lot of great points made, and I don't 
need to repeat my agreement with all of them. I'd like to try 
to focus on one theme, though, that I see emerging here, and 
it's a concept of bridging. Let me talk about this in a couple 
of respects.
    As to the spectrum, as with all things, I start with the 
goals of the Americans with Disabilities Act, equality of 
opportunity, full participation, independent living, and 
economic self-sufficiency. What does that mean? That means that 
we want the same options, the same opportunities as all 
Americans without disabilities have.
    Part of what we've been hearing in our work at the National 
Council on Disability is a huge gap between Federal policies 
and what's actually on the ground day-to-day. On one level it's 
simple to articulate policies. It's sometimes harder to get 
those policies translated down to the ground.
    So there's a bridging piece that we need to figure out to 
close that gap. As you've heard from many people here today, we 
know what works. There are so many stories of where people have 
figured out creatively how to go about finding ways to meet 
their potential. Not everybody knows what works, though. 
People, Ms. Neas referenced returning veterans who have 
sustained new disabilities. They really need to figure out what 
works, and they're not necessarily engaged in the community 
that has all those paths laid out for them.
    Since we know what works but not everybody knows how to 
make that work, the expectations, the attitudes do become so 
important. We can't micro-manage policies that directly get to 
that one-on-one collaboration for each individual, but the 
framework of expectations has such a profound impact.
    There's a phrase that I like, ``the dignity of risk.'' Ms. 
Petty referred earlier to dignity and respect. To me, when you 
talk about the dignity of risk, it means that every individual 
should have the opportunity to self-determine their own future, 
to have informed choices, the opportunity to make informed 
choices, to risk both having the chance to succeed but also the 
chance to fail. I don't mean to say that the goal at all is to 
fail, but there's something inherent in the opportunity to try, 
and we're not always going to be able to guarantee a successful 
outcome.
    The other point that I want to mention as far as bridging 
is we have an inherited world, and we have a world that we want 
to become. We can't necessarily change the world instantly, but 
we need to find the strategies to get there.
    One of the parts of the inherited world I think we struggle 
with is a focus on tasks, not skills. One of the things that 
I've heard repeatedly from employers is they're not looking for 
people that have been trained in a specific task. They're 
looking for people who have the skill sets to succeed on a job 
where they can help guide them to the kinds of tasks that need 
to be undertaken in a particular workplace.
    I think part of the model we've inherited is, well, let's 
train an individual to do one specific task, as if that task is 
going to be viable for the next 50 years. That's not a great 
investment strategy. We're better off investing in skills that 
are going to be adaptable to the environment as it changes.
    Now, the other final point I'll make about bridging is your 
definition about people who need supports. There are economic 
aspects to that. There are costs associated with supports. So 
we need to figure out how to align resources, align the 
incentives in ways where resources we're dedicating to provide 
supports are most effectively aligned with effective self-
determination and informed choice.
    Maybe I'll just pause there.
    The Chairman. Jonathan, you're saying that the theme that 
you kind of picked up here that kind of cuts through everything 
is the opportunity to make informed choices, the opportunity to 
advance, but also the opportunity to fail.
    Now I'll say something maybe provocative to those who don't 
know this community very well, that sometimes I think people 
feel that someone with a disability, especially someone with an 
intellectual disability, we just can't permit them to ever 
fail. Why not? That's part of life. That's part of growing. I 
mean, sure, they may try something. Well, I've tried things in 
my life that I couldn't do either, that I failed at. So some of 
us are skilled in different ways. So what's wrong with building 
that kind of character to understand, well, OK, you tried that, 
it's not your deal; try something else. I think a lot of people 
that are not too much involved in the disability community 
don't understand that. I think somehow it's still perhaps part 
of what someone brought up here, a little bit of that pity, 
protectionism, have to take care of people, coddle, all that 
kind of stuff, so we can't permit people to fail like that, can 
permit people like me to fail but not people with significant 
disabilities.
    Is that sort of what you're talking about?
    Mr. Young. Well, yes. And if I can follow up on that and 
perhaps use one story from my own personal experience as a 
graduate student in the history program at UNC-Chapel Hill, my 
first major writing seminar was with a Professor Peter Walker. 
He started out his first statement at the beginning of the 
seminar, and I can't convey his southern accent, sort of 
southern gentleman very slow presentation, but he told us every 
single one of you are going to fail this semester, and it took 
us all aback. We like to think that we're capable and competent 
people. And he kind of let that sit for a while for us to think 
about it. And he said, ``the question is, can you have an 
elegant failure?''
    [Laughter.]
    His point was none of us were going to write a perfect 
paper, so just sort of get that out of the way. But let's focus 
now on, in the process, can you do an elegant job of failing 
that's going to show that you've advanced.
    One of the things that we've talked about here thus far is 
expectations, and I think Dr. Schroeder referenced this, 
there's an assumption that people start out as being less than 
are deficient. I'd like to submit that in many respects, the 
people most equipped to succeed in our workplace are people 
with disabilities because each and every single day we have to 
develop strategies to adapt to a world that wasn't really set 
up for us.
    The Chairman. Good point.
    Mr. Young. And I observe Dr. Schroeder here working with 
the microphone, with his name tag, and with a watch. I think of 
the ways that I navigate the world with my physical disability. 
There are things that we probably can't even put our fingers 
on, but there are aspects for individuals with disabilities and 
their families who are, from the moment of the disability, 
continually developing skills to think creatively about the 
world.
    So like you said, we don't need to be guaranteed a chance 
to succeed. We do need to be guaranteed a chance to try, and if 
that means failing, many of the things that have been most 
helpful to me in my life have been where I failed. It hurt. It 
was awful. But I learned from it and went on to be better.
    The Chairman. Sure. I think that's part of life's 
experiences.
    I just see Ms. Neas has her sign up.
    Ms. Neas. I want to switch tactics just a little----
    The Chairman. Oh, I'm sorry. Janet Samuelson. I'm sorry. 
Your name fell over, but you had your--I'm sorry, Ms. Neas. 
We'll come back to you.
    Janet.

STATEMENT OF JANET SAMUELSON, PRESIDENT AND CEO, SERVICESOURCE, 
                         ALEXANDRIA, VA

    Ms. Samuelson. Senator Harkin, first and foremost, thank 
you so much for your advocacy on this important issue.
    I think probably one of the reasons that I was invited here 
is not only because we serve people in a lot of different 
geographic areas and different geographic settings, urban and 
rural, but also we serve people with a lot of different types 
of services and different disabling conditions. Even when I go 
back to the definition that you provided way up front of 
someone with the most significant disability, there's a really 
pretty broad continuum of service needs and employment needs 
within that type of a definition.
    I think that we all know that we don't have a comprehensive 
or holistic service delivery system for people, or funding 
system, support system through the Federal laws. As a service 
provider or broker between policy and Federal programs or State 
and local programs, we're working in some cases with WIA; we're 
working with the rehab act and the vocational rehabilitation 
systems; we're working with school systems and how transition 
plays out; we're working with local, State, and Federal 
resources that may be brought to the table; foundations; and in 
some cases charitable dollars.
    But more importantly than anything else, I think if I look 
at the range of people that we serve, we operate services where 
we are the privatized vocational rehabilitation system in 
certain areas as a pilot project, all the way through day-
habilitation, work or nonwork activity type programs, that I 
probably serve people through our five organizations that 
represent every one of the viewpoints that you've heard here. 
So we have to be the integrator of understanding all of those 
perspectives and all of those ranges of needs.
    When I look at the different funding systems and some of 
the ideas that you've heard here today, I think there are some 
very important things on the positive side. Senator Mikulski 
was talking about the changing labor force and how policy is 
still reacting to a previous design of labor. I think there are 
issues around assistive technology and access to technology and 
changed tools in the workplace, changed demands of the 
workplace.
    There are a lot of opportunities for creative incentives. 
We're talking now to one of our State VR programs about looking 
at creating pathways for people from some of the contract 
employment opportunities directly into Federal employment.
    I think there are a lot of good, positive things that can 
be done to move people with significant disabilities, by 
whatever your definition is, into the labor force and through 
the labor force, but I also think there's a little bit of a 
reality check that we need to think about when you're talking 
about policy versus implementation. You mentioned that with the 
recent recession and some of the downturn, that people with 
disabilities were exiting, not through their own choice, the 
labor market at 10 times the rate of other people.
    I know from our experience, because we try to be very data-
driven in looking at what we do, that we traditionally had been 
able to place, let's say, 1,200 to 1,500 people a year with 
community employers, with or without supports. That number, 
when the economy started tanking, got down as low as 500 people 
a year, less than half of the entry into the market for people, 
and that's, again, by whatever your definition of severe or 
significant disability is.
    And so we have to deal with the realities of these various 
programs. We have to deal with the realities of resources that 
are available to support people and get them out. You have to 
deal with the realities from an employer standpoint of 
reasonable versus unreasonable accommodation and how you move 
that bar to a certain extent.
    And again, when I look at all the numbers of people that we 
serve in my 30-plus years in the field, people have been able 
to--there's no question there are better opportunities 
available now than there have ever been. There's better 
understanding. There's a lot more implementation of good 
options for people, and certainly there is a lot more that we 
can be doing in those areas. But there are still people who, 
from a choice or developmental standpoint, have structural 
barriers to employment that don't allow them to enter the 
market in what would be considered a full and open, integrated, 
competitive employment definition.
    I think it's so critical that we not negatively impact 
opportunities, we not restrict opportunities and create cliffs 
that mean that you have haves or have-nots.
    My experience in working with the changed definition in the 
Rehabilitation Act program 10 years ago or so was that when you 
are in an environment--and so this isn't a slam at the VR 
system, because I think they're doing good work. But when you 
are in an environment where there are constrained resources, 
you don't have all the resources to serve people, and you have 
a definition that says people need to be able to achieve this, 
and what happens is that you end up having, with limited 
resources, people being served who can achieve certain 
outcomes, as opposed to over time develop to those outcomes.
    I think in every one of our funding sources and our policy 
sources, it's important to be sure that we are finding ways 
within each of those to create and incent and develop new 
opportunities, as opposed to restrict opportunities while we 
develop, again, a broader continuum, a more organized 
continuum, and move people more and more toward the desirable 
goal, I believe, for every person with a disability, which is 
participation in the workforce.
    The Chairman. Exactly. I just want to say, Ms. Samuelson, 
that I understand the realities of resources. I understand the 
realities of accommodations. Some of us, though, are trying to 
change those realities, the perceived realities. The perceived 
realities are that supportive services just simply cost a lot 
of money, and we don't have that money.
    On the other hand, we seem to then say, ``well, but OK, 
we'll do SSI and we'll do Medicaid, Title XIX,'' we'll do all 
those things, and that costs more money. But somehow we've got 
to change that reality of what resources are really most 
efficient.
    But I know as a practitioner, someone like you who is out 
in the field every day, I know you have to deal with those 
realities. I'm just saying I hope that there are those of us--I 
see my good friend Senator Merkley is here. I know he is also 
interested in changing some of those realities, too, about how 
do we deal with these resources so that the resources we have 
are focused more on providing the opportunity to make informed 
choices, the opportunity to have early intervention programs, 
because we know those are the most cost-effective if you just 
look at it from a budgetary standpoint, a resource standpoint.
    Ms. Samuelson. I was just going to say to that point 
exactly, when you see restrictions in services, as you found in 
the rehab act, what happens is people that might have been 
served through that funding stream being shifted into Medicaid 
waiver programs, where the services are more expensive and the 
design is not oriented toward work, permissible work in the 
same way.
    The Chairman. Absolutely.
    Now I'm going to recognize Ms. Neas.
    Or, Senator Merkley, would you like to interject something 
here right now? I'll recognize Senator Merkley, who is, again, 
a very valuable member of this committee and was also a very 
valued member of the Oregon legislature, where he was the 
leader and I know he's worked on these issues for a long time.
    Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you, Mr. Chair.
    I really just want to thank you all for coming. This 
underlying issue of how you provide work and employment 
opportunities that both provide financial resources and an 
appropriate workplace is very important, for all workers, 
whether they have disabilities or not. A job is something that 
not only provides finances, but it feeds the soul. And so 
trying to wrestle with the best possible way that we can create 
a framework for that employment is a very important issue. On 
my team, we've been talking to folks about trying to understand 
the pros and cons of different approaches, and hearing your 
thoughts here is very useful. Thank you for coming and 
wrestling with it.
    The Chairman. Thank you very much, Senator Merkley.
    Ms. Neas, you're next. Then I'll recognize Mr. Pearson.
    Ms. Neas. I want to just add two concepts that have been 
raised. One is this whole notion of assistive technology. We 
are seeing, particularly in an education environment, that kids 
that we thought had very limited cognitive abilities, when 
they're given the right adaptive equipment, are able to 
demonstrate that they don't have significantly different 
cognitive abilities. I think we need to make sure that people 
who need certain devices and supports get them, and that that 
can be life transforming.
    I think of our friend Bob Williams. When I first met him, 
he had a laminated board that he pointed to, and now he's got 
this very groovy electronic talking liberator that makes 
communicating with him a lot easier. I think about if Bob had 
to do what Fred was talking about, working in a mattress 
factory, that wouldn't work so well for him as a person with 
significant cerebral palsy.
    I think being able to give people the tools they need to do 
what they can do is something that's really important.
    And then the other component I think is support employment 
is something that's just grossly under-funded, and we really 
need to be able to give people those ongoing, not time-limited 
but ongoing, on-the-job supports, that people may need 
different levels during the course of whatever it is they're 
doing, but that concept of ongoing, long-term supports for 
people to be in the community working is something that we're 
just desperate for.
    The Chairman. Technology, you're right. I'm glad you 
mentioned Bob Williams because he's one of the most fantastic 
writers I've ever met.
    Ms. Neas. Exactly.
    The Chairman. Just a beautiful writer. But with severe 
cerebral palsy, it would always hold him back. Now, through 
technology, he can let that ability that he has, which is 
incredible----
    Ms. Neas. And having a conversation with him before this 
device required a great deal of determination to pay attention 
to each word and to be able to remember 20 words ago to get to 
the end of the sentence what he was saying, which you could do, 
but it required a great deal of concentration beyond a typical 
conversation. And so to have him now be able to just 
communicate directly is a much more effective way.
    The Chairman. Incorporating technology is very important.
    Let's see. Mr. Pearson, you had your----
    Mr. Pearson. I just wanted to make two brief points, and 
it's in line with supportive technologies.
    In manufacturing, we consistently improve the process. And 
just as freedoms that African-Americans sought made everybody 
else freer, in the manufacturing process, when you begin to 
improve the process, it improves everyone else's productivity.
    The Chairman. Sure.
    Mr. Pearson. So that's what's gained when we begin to think 
outside the box.
    And the other point we talked about earlier is failure. 
Well, if you compare--an employer should always compare, and 
this is not anecdotal data on my part, it's actual. We've been 
more successful with retention with our employees who have been 
disabled, and it went back to that earlier point of loyalty. 
Turnover is expensive. What is less expensive is retention. And 
by focusing on that group of loyal employees and investing in 
recruiting, and what is minimal expenses in terms of 
accommodation, which is often viewed as a dirty word, is 
actually in most instances very inexpensive and goes back to my 
first point of everyone begins to share in a productivity 
improvement.
    The Chairman. Sure.
    Now, I'm going to recognize some people. Everybody's got 
their cards up. But remember when I started this discussion, 
there were two things I wanted to hopefully bring out in this 
roundtable discussion. One was sort of the spectrum of 
opportunities, the spectrum of getting people into employment. 
But the other aspect was career enhancement.
    It's one thing to get into a job. The other thing is how do 
we build systems so that people can advance in a career, people 
with significant disabilities, how they can get a job, 
training, opportunities for advancement. How do we work that 
in? So that you don't just say, ``OK, we got you a job, and 
that's what you're going to do the rest of your life.'' Well, 
sometimes people like to try different things, advance, do 
different things. What do we need to do to sort of help the 
private sector integrated employment so that they have career 
opportunities and advancement?
    I want you to think about that, and if we can bring that 
up. Ms. Moore, you had yours up. Then I'll go to Ms. Petty, Ms. 
Pumphrey, Mr. Schroeder, from left to right, and then Mr. 
Young.
    OK, Ms. Moore.
    Ms. Moore. Well, I'd like to go back to what Mr. Young said 
about bridging. I think as we look at a more complete 
implementation of what we actually know how to do in our field 
to include everyone, if we say ``all means all,'' that's not 
just an ideological perspective. It's really a commitment.
    A piece of that is to say, ``all right, you brought up voc 
rehab, what we measure is what we produce.'' So what is it that 
we're giving guidance to? What are we enforcing? What are we 
measuring? What are the performance outcomes that we actually 
expected? Have we set some targeted goals? You talked about the 
huge discrepancy, Senator, between the unemployment rates right 
now for people who are not perceived to have disabilities and 
for people who do, and it's huge. And in order to shift that, 
we do have to commit to certain things and begin to divest from 
other things.
    I would suggest that if we are going to move away from 
segregation in a skillful, planful way, we need to commit to 
that in measureable ways, planful ways, and we need to have 
clear, supportive leadership. We have national policies. We 
have laws. We have people's protections under the law in terms 
of the ADA, the voc rehab act, under Olmstead, as people have 
suggested, but it's not aspirational. This is actually the 
policy of the United States.
    On the ground where we're doing that, we need to hold 
people to it, and I think we have some really good examples. 
Nobody is perfect. No system is perfect. We're imperfect 
people. But if you look to places like Vermont or Washington 
State, where there was sustained leadership with a very clear 
policy, a very clear set of measures of what are we moving 
toward, and consensus building among all the partners, 
including people running sheltered workshops to say we're going 
to move toward more customized supported employment, real jobs, 
integrated work, meaningful wages, and we are going to move 
away from some other models. They didn't dump people in the 
street, but now they have roughly twice the positive employment 
outcomes of other States because they made that commitment.
    There was never a question about a little of this, a little 
of that. I mean, one of the reasons we had the Olmstead 
decision is because States were a little confused about the 
ADA. They thought, all things being equal, a little 
segregation, a little integration, great, and that actually 
wasn't the law.
    We have the same thing in employment.
    The Chairman. That's right.
    OK, I'm going to go to Ms. Petty, but then I want to skip 
to Jonathan Young down at the end to talk about policies that 
we need to put in place to increase earnings and advancement in 
the workforce.
    I'm going to start with Ms. Petty.
    Ms. Petty. I wanted to go back and talk a little bit about 
the resources. And I did not understand because I see many, 
many hundreds of people working in segregated employment, and 
that works out to get these huge contracts, and all that money 
going into the workshops, I think, can be used to help people 
have a job with dignity.
    I live in the Wal-Mart capital of the world.
    The Chairman. That's right. The chicken capital also.
    Ms. Petty. I know that Wal-Mart contracts with some of the 
sheltered workshops in our area, and we just want the employers 
to change their attitude, as I said earlier. It's about 
attitude and thinking that everybody can have a job. So I think 
we need to start there, and I wanted to address your career 
question.
    I think it starts in one area with voc rehab. When I was 
going to school, I did not see my vocational rehab counselor. I 
didn't even know what that was, so I didn't see them until I 
was a senior in high school. And I think we need to start 
earlier.
    I have two little boys, and people already ask them what do 
you want to be when you grow up. I think we need to start 
earlier, and you've been talking about the early intervention. 
And so that might be able to help shape policy if we can start 
working kids earlier and helping them. And, you know, I went to 
college, and I changed my major a few times. I really didn't 
know what I wanted to be even when I was out of high school.
    Thank you, and that's all I have.
    The Chairman. All right. Thanks, Ms. Petty.
    Jon, OK. I'll just change the focus a little bit here on 
career. I think Ms. Petty just kind of put her finger on it 
there. She didn't see voc rehab much. Hopefully we're going to 
try to change that. But getting people to think about careers 
and how they advance, and how do we make sure that people with 
disabilities don't just get--it's OK to get a job, but how 
about career advancement?
    Mr. Young. Thank you, and I think it's a great point that 
you start with there, because there may be a tendency to think 
of a job as a static moment as opposed to a person's life. 
There's a phrase that ``people are policy.'' I think when we 
look at the lives that we see people living, it's an expression 
of our policies. To have policies that are effective, they need 
to be attuned to an entire person's life.
    Let me come back to two points. I used the expression 
``dignity of risk.'' There's a discussion about reality. I 
think we do need to recognize that not everybody has the same 
risk threshold, if you will, in terms of how much risk they're 
willing to take. So as we look at policy changes, we need to be 
mindful of the--informed choice means an informed choice about 
the risks given today's environment, and that includes an 
environment of very difficult economic circumstances.
    As we talk about the difficult economic circumstances, 
though, we've got to be mindful that the costs also are not 
static. I think we often tend to look at costs in one area and 
say, ``oh, well, that's too expensive,'' and you hinted at this 
earlier. But by not investing in people in certain respects, 
we're risking raising costs significantly otherwise.
    We spent billions of dollars on education programs for 
people with disabilities. If the endpoint of those education 
programs is a lifetime of entitlements without providing as 
much opportunity as possible for people to live independently 
in communities of their choosing, to be engaged and earn as 
much as they can in the setting of their choosing, our 
economics are backward.
    We need to recognize limited resources, but we can't focus 
narrowly on certain investment of costs without paying 
attention to what the opportunity costs, if you will, are by 
not investing in those. In terms of the policies that we need 
to undertake, to me the core piece becomes incentives, and a 
few people have talked about this. We need to focus on where we 
establish policies and where we invest resources, what 
incentives does that create.
    You mentioned earlier--a few people have mentioned the role 
of internships. I'm proud to say that I had no idea what I 
wanted to do in high school and was really a pretty awful 
student. I was a wrestler. When I went to college I was going 
to be an engineer because math was the easiest thing for me, 
and then I worked for Congressman Tony Coelho for a semester 
after my freshman year in college, and I'm here today, among 
other reasons, because Tony Coelho had me sit in the majority 
whip office and attend majority meetings, and I got bitten by 
the bug of politics.
    A lot of people with disabilities, if you're living on 
certain benefits, that prohibits certain amounts of income. 
There are many people that go through school and don't get the 
chance to have those internships because doing that means they 
lose certain things, and those economic resources are important 
and valuable.
    And if those incentives are aligned away from 
participation, that has a cascading effect, because missing 
that internship at one point or missing the opportunities 
throughout the early periods of schooling are going to make it 
harder to have sequential job development.
    I know I'm being fairly high-level here, but I think if we 
could focus on incentives and figure out where the resources 
are that we have to invest because we're going to pay for it if 
we don't, but let's invest those resources where the incentives 
are aligned with the goals that we all know and agree on, 
enshrined in the ADA.
    The Chairman. Very good. Thank you.
    Mr. Schroeder, I'm going to call on you, Fred, in just a 
second here, and then Ms. Pumphrey. But before I do, we've been 
joined by Senator Franken, and again, someone who is a great 
member of this committee, and also someone who I know is 
committed to the goals of the ADA and making sure that we have 
the resources that we need, and that we invest those resources 
wisely.
    Senator Franken, welcome. Thank you for being here, and 
I'll recognize you for comments or questions.

                      Statement of Senator Franken

    Senator Franken. I apologize for getting here late. I was 
stuck in a Judiciary Executive Committee where we needed to 
keep a quorum.
    But this is our second hearing on this, and I have just one 
basic question. I've been to a sheltered workshop situation 
where there seemed to be people working who were severely 
disabled and who were really having a good time, I mean really 
happy in the work. And then we had a hearing here, and we had a 
gentleman who was pretty severely disabled who actually was in 
an integrated work environment and spoke incredibly highly of 
it. I don't know if you remember, but this is like the biggest 
laugh that we've ever gotten since I've been here. He had Down 
syndrome, and I asked, I said, ``why do you enjoy it?,'' and he 
said, he likes joking around with his supervisor. And I said, 
``does your supervisor have a good sense of humor? '' And he 
said, he took a pause and he went, ``Is this on the record? ''
    [Laughter.]
    And he knew exactly what he was doing. So as a former 
comedy writer and comedian, I consider a sense of humor to be 
maybe the highest form of intelligence.
    [Laughter.]
    This may have been, in a way, the most intelligent person 
ever to testify in my experience thus far.
    But my question really is--and I understand the Vermont 
example of segueing from a sheltered workshop setting much more 
toward integrated. My question really is, is there a place for 
sheltered workshops, and are sheltered workshops a better 
place, or do you distinguish between severity and nature of the 
disability when considering whether there is a place for 
sheltered workshops? That's for anyone.
    Ms. Moore. I don't know if Fred wants to take that.
    The Chairman. Do we need the question repeated, or do you 
understand it?
    Ms. Moore. I'll do it if you want.
    The Chairman. All right. Ms. Moore, you're first up.
    Ms. Moore. Well, I think to both address the question of 
how do we best advance people's careers and to answer the 
question of to what extent does level or type of disability 
possibly predispose people to be seen as more appropriate for 
sheltered work, I think sheltered workshops have a place 
because they're here and because we have so many, hundreds of 
thousands of people in sheltered workshops. So no matter what 
we decide here, there will be a role for sheltered workshops as 
we move forward.
    I think that relative to the level, type of disability, 
we've really gone way beyond that in terms of our ability to 
look at a person, and until we can do this we'll never be able 
to figure out the advancement of the career either, because 
we're really looking at the contribution the person can make 
and then saying what's the negotiated relationship with the----
    Senator Franken. Are you saying there's sort of a danger, 
when talking about level of disability, of basically 
categorizing people and not looking at everyone's individual 
capacities?
    Ms. Moore. Absolutely. I know one of the first people I 
ever got a job for was somebody who had long-term 
institutionalization, was deaf and blind, and had developmental 
and cognitive disabilities, and she was just not considered 
employable based on how she looked in that environment, her 
lack of experience, her lack of frame of reference, and people 
weren't able to figure out how to communicate with her right 
away.
    We did a fairly extensive process of coming to really try 
lots of things, to what Ms. Neas said, and what we discovered 
was there were things that just really did light her up. And 
not surprisingly, given her dual sensory impairment, she really 
liked manipulating things, putting things together. We ended 
up--now, that could have--arguably, people could have said, 
``oh, she likes putting things together, let's send her to a 
sheltered workshop. She has significant multiple 
disabilities.''
    But we ended up getting her a job at American Electric Wire 
and Cable, building computer cable harnesses that it turns out 
you can do--we taught her. By the way, we structured the 
environment, did hand over hand. We used systematic instruction 
and the assistive technology. That was back in the 1980s, so 
we've advanced way beyond that now. But we had to picture her 
making a contribution and recognize there was absolutely 
nothing that we could provide for her in a segregated setting 
that couldn't be provided where that work usually occurs.
    I understand that it's not a simple thing to move from 
where we've been to where we're going, but I think we have 
learned a lot not just about skills but we've also learned that 
people can make a contribution that is not just specific to 
skills, and I think those of us who have been employers 
recognize that.
    The Chairman. I hate to jump around here, but Mr. Schroeder 
has been trying to get in here for a long time.
    Did you want to address yourself to this specific question 
that Senator Franken raised, or was there something else, Fred?
    Mr. Schroeder. Well, actually, I think it's a good segue 
into the whole question about upward mobility, that if a person 
is placed in a facility that has a very limited range of 
activities, the idea that the person would have a maximum or 
even a reasonable opportunity to prepare for upward mobility I 
think is questionable.
    We issued a rule when I was with the Rehabilitation 
Services Administration back in 2001 that ended the practice of 
people being placed in sheltered work through the Vocational 
Rehabilitation Program. And the reason we did it is because the 
essence of public policy, as Jonathan was talking about a few 
minutes ago, is aligning your incentives around the activity 
that you want to increase, and we believed that sheltered work 
did not afford people not only the level of employment that we 
believe people could attain given the right supports and 
training, but specifically the upward mobility.
    Just not to belabor numbers, but one of the things we 
looked at was whether people who were employed in sheltered 
work, in fact, developed skills that enabled them to leave the 
facility and move into integrated work, and our data showed 
that fewer than 1 percent left sheltered employment each year 
for integrated employment. And so the incentive we felt was not 
there.
    And if you look at the broader incentive system, there are 
hundreds of millions of dollars of noncompetitive Federal 
contracts, as well as other types of contracts, that go to 
facilities, but there's no particular incentive to maximize the 
individual's earnings, there's no incentive built in to move 
the person into higher-level employment, there's no incentive 
even to have the work be sufficient to be reasonably self-
sustaining; in other words, the hours of work.
    If we think about work at its most basic level, there are 
people who do volunteer work, of course, but by and large we 
equate work with earning enough money to be self-sustaining, 
and our data did not see, certainly didn't reflect that 
sheltered work was achieving that end. We wanted to press the 
system toward integrated work that paid a competitive wage, 
that was challenging and interesting to the individual on the 
assumption that that's the best platform for people to advance 
in employment.
    The Chairman. Dr. Schroeder, thank you very much.
    Now, let's see, I'm trying to figure out who to go to next. 
Ms. Petty, OK, go ahead.
    Ms. Petty. I wanted to answer Senator Franken. You said 
that the person you met, he liked the sheltered workshop. Is 
that right?
    Senator Franken. I'm sorry. The person I met where?
    Ms. Petty. He liked to be in the sheltered workshop? He 
enjoyed it?
    Senator Franken. The person who testified here?
    Ms. Petty. No. You said you went to a sheltered workshop, 
and they were happy, right?
    Senator Franken. Oh, right, right. Yeah.
    Ms. Petty. Well, my question would be what was it that made 
them happy at the sheltered workshop, and why wouldn't they be 
able to be happy in the community? Because if I remember right, 
we ended segregation many, many years ago. So people with 
disabilities, especially intellectual disabilities, is a form 
of segregation, and that is not our civil rights. That goes 
against our civil rights.
    I just wanted to say that. Thank you.
    Senator Franken. I think that's a great question. I mean, 
my observation was that there are people, a number of people 
seem severely cognitively disabled, and that they were really 
having a good time, I mean really enjoying their experience, 
like laughing a lot. I mean, it was an extremely happy 
environment.
    It made me feel that the people who had provided or who had 
put this together were doing a really good thing, and my 
question really was that from my really brief experience there, 
that I would say that there was a difference in the level of 
disability between the young man who testified who got that 
huge laugh and the people that were there. He was working for 
Hewlett Packard, and he seemed to be an extremely intelligent, 
capable guy from every metric that I could think of, other than 
the fact that he had Down syndrome, but he was really smart.
    On the other hand, I'm not certainly an expert in this, and 
that's what I was really asking. I'm asking from a standpoint 
of real ignorance on my part, and humility. But I'm wondering--
just take my question at face value. And your answer is why 
wouldn't they be happy also in an integrated situation, and 
they probably would be. I think these people, the particular 
people I'm thinking of, there were two who sat next to each 
other who seemed to be laughing a tremendous amount at each 
other's jokes and were having a much better time at their work 
than most people have a right to.
    [Laughter.]
    That was my experience.
    The Chairman. They were having a better time than we 
usually have here is what you're saying.
    Senator Franken. This committee is incredibly enjoyable, 
Mr. Chairman.
    [Laughter.]
    The Chairman. Ms. Pumphrey, could you respond to this? 
Because you have a son with very severe and significant 
disabilities. You spoke about that earlier. What's your 
observation on this?
    Ms. Pumphrey. I still maintain that there's a point or a 
place in this society for sheltered workshops. That's where my 
son is, and I believe that that option needs to be there for 
individuals with significant disabilities.
    One of the things I would like to see happen to help with 
the cost of the services of placing individuals with 
significant disabilities in the community is the Consumer 
Choice Options program through the Intellectual Disabilities 
Waiver allows me to manage his services at a significantly 
reduced cost than if I were purchasing his services through an 
agency. If I were able to purchase through the Consumer Choice 
Option program the supportive employment piece, I could do that 
very cheaply and allow him to work in the community doing the 
work that he enjoys. Unfortunately, the way that the waiver is 
designed, that's not an option at this time.
    I would really like to see the Consumer Choice Options 
piece of the waiver, those guidelines opened up some.
    The Chairman. OK.
    Ms. Samuelson.
    Ms. Samuelson. To answer Senator Franken's question and 
segue it back to your question, which I know you're trying to 
get answered, the second one, and I think also to tie into Dr. 
Young's point, if you're trying to look to the future and how 
to move where you want to go from a public policy standpoint, 
then you have to start with people and systems where they are 
and figure out how you can make things change.
    If you have people who are served in a segregated or a work 
center environment, and we do, we have three work center 
programs in three of the States that we operate, a very small 
percentage of the total number of people that we serve, but 
that's where people are. That's either where they've ended up, 
or sometimes it serves as a safety net for people who have been 
out, and then as their needs change and they're less able to 
work, they come back in.
    Then how do you begin to develop the incentives and systems 
to support moving the bar or creating opportunities without, 
again, creating a service cliff that eliminates opportunities 
for people because they can't qualify or there aren't enough 
resources in the system at the current time to take them where 
they need to be?
    And to Dr. Schroeder's point about the changed definition 
and placement, what we found was that people who might have 
gotten into the vocational rehabilitation system and been 
served with a broader definition, and then for continuing types 
of services in an environment of limited resources instead 
don't get into those systems. A very small fraction of the 
people that we serve in employment programs, by our definition 
of people who have most significant disabilities, are people 
who have entered through the vocational rehabilitation system, 
and that's not the way that you want it to be if that's meant 
to be our primary service driving program to support not only 
the initial employment but also the career development for 
people with disabilities.
    And to the point of what do you do when you have somebody 
who is in a less-than-ideal from full inclusion and full 
opportunity employment, I think that there are many proven 
strategies that can be incented into the systems. I know we do 
a lot of what in the workforce investment system would be 
called incumbent worker retraining, to help encourage people to 
broaden their career interests and move through systems. You've 
got assessments, you've got mentorship programs, you've got 
internships.
    You've got a lot of ways to expose people to alternate 
skill and work environments, but you also need to have ways to 
do supported transitions when it's a question of risk 
management and how much somebody is willing to try, and that 
can include some strategies that we've tried, like guaranteeing 
service slots for people that are willing to try different 
things but still come back, and transportation, which is a huge 
issue for people in terms of work environments, and it's a huge 
issue--I know we're not talking about Social Security, but it's 
a complex issue because there's the whole overlay in terms of 
all of the programs and supports that come through some of the 
entitlement programs, SSI and SSDI.
    I think if we focus on incentives and the things that we 
know about what works and how to build those into our delivery 
systems without restricting options for people, then we can 
start with people where they are and help them find new 
opportunities.
    The Chairman. Exactly.
    Ms. Neas.
    Ms. Neas. Senator, I think the two concepts that are really 
important here, one is informed choice. Did anybody ever ask 
him, what do you want to do?
    Senator Franken. I don't know.
    Ms. Neas. And that's a factor.
    The other is how risk averse or how much are people willing 
to take a risk? My experience is the older people are, 
sometimes the less willing we are to take a risk, and if this 
works for me, then it works for me and please don't change it.
    I think we want to have particularly kids coming out of 
school thinking that they have more choices than just one 
option. On the other hand, I think we don't want to take away a 
place for people to earn some income and replace it with 
nothing if nothing is the other option.
    The Chairman. Anyone else wanted to add something to this 
or expound on something? Jonathan? You looked like you were 
ready to jump in there on this.
    Mr. Young. I was thinking about it, but now I have to move 
from thinking to talking.
    Let me try to make two brief points, one I think we need to 
hold out as an ultimate measure of quality of life. I think 
what becomes challenging, then, is determining how do we 
measure quality of life, and who measures quality of life, and 
to return to earlier themes, ultimately I think each individual 
needs to measure their own quality of life.
    To measure one's own quality of life, there also needs to 
be sufficient awareness of what life opportunities and options 
there are. But let me come up on the theme a moment ago about 
starting where people are. I'm a pragmatist by philosophical 
bent, and so I've always wanted to do things from the ground 
up. I think that's a powerful point to begin with.
    Whatever we may say about how things are or are not 
working, there's a moment that we're at right now. There are 
people who are living right now in certain experiences, which 
include certain segregated settings, as well as integrated 
settings, and I think we need to start from the vantage point 
of people's individual lives, what is working or may not be 
working, and what more they might learn or what might be made 
available to them that could move from a particular place to 
another place, including people where the opportunity that 
they're in might be satisfactory for the moment but there's a 
clear development issue.
    If I'm 25 years old and in an entry-level job of some kind, 
that's not the end of the story. I mean, you want to look at 
development opportunities. At all points of the life spectrum, 
whether we're in school or at any point in the employment 
spectrum, the dialogue I think needs to begin with trying to 
assess the quality of life where one is, and how do we identify 
particular strategies that move an individual to a place of 
their choosing of greater opportunity.
    The Chairman. Got it.
    Dr. Schroeder.
    Mr. Schroeder. Very briefly, going back to the idea of 
incentives, and also the public's conception of disability, I'd 
just like to say very clearly that I believe that the sub-
minimum wage system needs to end, and I say that knowing all of 
the counter arguments. But we live in a society that assumes 
that people with disabilities are less productive, and 
therefore the sub-minimum wage system I think perpetuates that 
viewpoint.
    Second, the sub-minimum wage system removes any incentive 
to try to find a better match for the individual. It is a 
premise that given the person's disability, he or she will be 
less productive, and that assumption then is passed on to the 
individual in terms of a sub-minimum wage.
    And so I think one very clear thing that would advance the 
employment of people with disabilities is to eliminate Section 
14(c) of the Fair Labor Standards Act, and that presses our 
entire system to explore employment opportunities that are 
really capitalizing on the inherent abilities of the people 
with whom we work.
    The Chairman. Mr. Pearson. And this may be the last comment 
because our time has run out. Go ahead, Mr. Pearson.
    Mr. Pearson. With that, Senator, there is no substitute for 
a solid human resources policy and integration in the 
workforce. If you want people to advance, they have to be 
evaluated, those records have to be reviewed, and then 
opportunities increased for people with disabilities, because 
employers will invest in folks who are loyal. They'll invest in 
people who have a demonstrated work history of performance, and 
integration is key to getting that done.
    The Chairman. I agree.
    Did you have something you wanted to add?
    Senator Franken. No. Thank you all.
    The Chairman. It's a great discussion.
    Senator Franken. And thank you for addressing my very basic 
question. Thank you.
    The Chairman. Thank you all very much. I think this has 
been a rich discussion, a great roundtable.
    I'll make a couple of observations in closing. Since I'm 
the chair, I get a closing. I have the gavel, as they say.
    I think we touched on some important policy issues, how we 
make competitive integrated employment available to all, even 
people with the most significant disabilities. We touched 
briefly, of course, on the whole issue of 14(c), the sub-
minimum wage issue. It seems to me that the idea of sheltered 
workshops, when it was started, was really cutting edge. It was 
getting people out of homes, out of institutions and into 
workplaces, where they could associate with people, learn skill 
sets, do things. It was wonderful. It was really cutting edge.
    Of course, I think we've advanced. There were a lot of 
things that were cutting edge back sometime, but maybe now 
we've moved. Society moves. And so just the whole verbiage of 
sheltered workshop, I don't like that. For some reason, it just 
gnaws at me. I like the idea of work centers, that type of 
thing. But the idea of a sheltered workshop? We've moved beyond 
that, Jonathan. We're moving beyond that concept.
    The question really, I think, for us is, as I think someone 
pointed out, I forget who it was, we have hundreds of thousands 
of people now working in these work centers. I'm not going to 
call them--I'm going to get rid of that language out of my 
lexicon here. These work centers that are there, we have to 
recognize the reality of that. But how do we start moving? It's 
just like with the ADA. I mean, we knew we couldn't change 
everything overnight. It takes years, and sometimes you have 
setbacks, like U.S. Supreme Court decisions, and then you work 
to overcome those. But it's a steady progress.
    How do we now, equipped with more knowledge, better 
technology, understanding the economics of the realities--I 
mean, we know, we have studies that show that--it was a 2011 
study I have here in front of me from Kent State University 
that showed that the cost of supportive employment was 40 
percent less than those in work centers or sheltered workshops. 
So we know that there's some cost effectiveness there.
    However, having said that, I think what we're trying to 
move toward is where there will be early integration, early 
programs, early intervention programs where young kids with 
significant disabilities are challenged, where they are 
provided opportunities for internships to see where their skill 
sets might lie, and the assumption should be that everyone can 
be in integrated employment. That should be the basic 
assumption, and our goals ought to be moving in that direction, 
and that's what we're trying to do, is move in that direction, 
recognizing, as I said, the reality that there are hundreds of 
thousands of people in work centers right now, and whoever said 
that, you might take more risk when you're younger, but when 
you're 35 or 40 or 45, and this is what I've been doing, and I 
know how to do this, and I feel comfortable there, and I may be 
happy there, do we uproot all that? Do we uproot that? I mean, 
who am I to try to uproot that?
    But it seems to me that we need to make that transition 
from the cutting edge of what these workshops were in the 
beginning now to a new cutting edge, a cutting edge of 
integrated employment and the future for young people in that 
setting. I recognize you can't do it overnight, but we ought to 
at least be moving in that direction.
    While I understand--believe me, nothing upsets me more than 
sub-minimum wage. There was this situation in Iowa that really 
triggered my thinking in this and said, ``wait a minute, this 
is an old concept. We've got to get rid of this.'' And what was 
happening there finally brought me to this realization that 
there has to be a new regime, a new way of doing things here.
    As I said, it's been a rich discussion. Do I have all the 
answers right now? I don't. I don't pretend to have all the 
answers. But I do believe there's a general consensus, I think 
among all the disability groups, that we do want to move more 
toward fully integrated employment to the maximum extent 
possible, and then recognize that for many, many, many 
Americans, their work in the work centers that they've been 
doing for many years, that maybe as we move ahead we can't just 
disrupt lives inordinately overnight. But we at least have to 
start with young people now and give them a new cutting edge.
    That's why I appreciated the opportunity here. I look 
forward to continued discussions, input from all of you and 
from the entire community as we move ahead on this. We'll feel 
our way forward. But again, I hope you'll look at what we're 
trying to do in the WIA bill, the Workforce Investment Act, to 
start to move in this direction, where the default setting is 
integrated employment, where the assumption is kids will be 
trained by VR and working early on to give them these skill 
sets, and I've learned a lot here just in terms of options--
internships and opportunities so people can try different 
things. That's got to be part of this also, I think, for voc 
rehab.
    We're feeling our way forward. But I think we are moving 
forward, and I continue to ask for your input in that.
    We'll leave the record open for 10 days. Participants may 
submit statements or supplements for the record. That includes 
all of you or any Senators who were here or couldn't come 
because of other committee assignments.
    And with that, unless there's something else to be said, 
the committee will stand adjourned.
    Thank you very much, all of you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

  Prepared Statement of Advancing Employment Connecting People (APSE)
    Chairman Harkin, Chairman Enzi and members of the committee, thank 
you for the opportunity to submit testimony related to the roundtable.
    APSE is a national non-profit membership organization, founded in 
1988 as the Association for Persons in Supported Employment, now known 
as APSE. APSE is the only national organization with an exclusive focus 
on integrated employment and career advancement opportunities for 
individuals with disabilities. APSE has chapters in 35 States and the 
District of Columbia. Our members come from all 50 States and Puerto 
Rico, as well as several foreign countries.
    The evidence is extremely clear: people with intellectual and 
developmental disabilities can successfully work in the community. For 
over 20 years, the Institute for Community Inclusion has tracked 
employment outcomes for individuals served by State developmental 
disability agencies. According to the most recently available data, 
20.3 percent of individuals are served in integrated employment--i.e., 
jobs in the community. After peaking at 25 percent in 2001, this figure 
has remained flat since 2004.
    This is unacceptable, particularly as you look more closely at this 
data and see the massive variation among States. Washington State leads 
the Nation at 88 percent, with Oklahoma at 60 percent. Vermont, 
Maryland, Louisiana, New Hampshire, and New Mexico are also States that 
are well above the national average. This is a highly diverse group of 
States, which have proven quite clearly that we can do a lot better 
than a 20 percent rate of individuals working in the community.
    So what makes the difference? For starters, it requires a clear 
vision and commitment to community employment by State leadership, 
followed by specific actions that act on this vision. It also requires 
within that vision, a culture that employment in the community is a 
natural and expected outcome. Absolutely critical is for States to use 
their resources, primarily funded by Medicaid, to provide incentives 
for and support services that are in line with that vision, and to also 
limit or deny funding for service alternatives such as facility-based 
services. It also requires a comprehensive approach in terms of 
addressing all the various aspects of operating a service system to 
ensure that the vision of community employment is supported. This 
includes ongoing staff development, with both systems staff and service 
providers, so that they not only embrace this vision, but also have the 
technical knowledge to implement it.
    It also requires addressing a wide range of other issues: service 
monitoring and quality assurance, engagement of individuals and 
families, the availability of benefits counseling that supports 
community employment, transportation, inter-agency collaboration with 
public vocational rehabilitation, to name just a few. Strong transition 
services from school-to-work, with a clear focus on community 
employment are also critical. One area that we have found that is 
absolutely vital is the need for a strong data measurement and 
monitoring system. It is clear that those States that are closely 
monitoring data regarding performance in community employment 
consistently achieve better outcomes, proving that old truism ``You 
manage what you measure.''
    We would urge the Federal Government to require States to have 
comprehensive employment data measurement systems for integrated 
community employment. This could be accomplished via the authority of 
CMS, which provides the vast majority of resources to State 
intellectual and developmental disability agencies. Along with all of 
these other factors, I should also add that moving forward on community 
employment can take significant political will. Many States have well-
funded and politically connected entities, consisting primarily of 
service providers interested in maintaining the status quo.
    Leaders of State intellectual and developmental disability agencies 
must be provided the support to stand up to these interests that are 
odds with the public policies of the United States that via the ADA, 
Olmstead Decision, IDEA, etc. that clearly state that disability is a 
natural part of human experience that in no way diminishes a person's 
right to fully participate in all aspects of life--including employment 
alongside their fellow non-disabled citizens. It is not acceptable to 
use public resources in a way that is in conflict with our national 
disability policy.
  Prepared Statement of the National Disability Rights Network (NDRN)
 the need for new strategies for improving employment for people with 
                              disabilities
    As the nonprofit membership organization for the federally mandated 
Protection and Advocacy Systems and Client Assistance Programs for 
people with disabilities, the National Disability Rights Network (NDRN) 
would like to thank Senators Harkin and Enzi and the Senate Committee 
on Health, Education, Labor, and Pensions, for their recent attention 
to the employment-related needs of people with disabilities. This 
hearing and the July 14, 2011, hearing on Strategies for Improving 
Employment for People with Disabilities, as well as the March 2, 2011, 
hearing on Employment Opportunities for People with Disabilities, 
demonstrate a continued commitment to improving the employment 
situation for people with disabilities.
    People with disabilities continue to face unemployment at a rate 
much higher than that of the general population. According to the 
Office of Disability Employment Programs, the unemployment rate for 
people with disabilities in June 2011 was 16.9 percent, compared with 
9.0 percent for persons with no disability. Moreover, over 78 percent 
of the non-institutional population with disabilities ages 16 years and 
over is not in the labor force at all, meaning that they may have given 
up on seeking employment or not be aware of employment services 
available.\1\
---------------------------------------------------------------------------
    \1\ ``Economic News Release,'' Bureau of Labor Statistics, June 
2011, available at <http://www.bls.gov/news.release/empsit.t06.htm>.
---------------------------------------------------------------------------
    Many individuals with disabilities are working in segregated 
settings for subminimum wage. In its January 2011 report, Segregated & 
Exploited: A Call to Action!, NDRN documented the risks of exploitation 
and abuse that come with segregated or subminimum wage settings, and 
discussed case studies of people with disabilities paid extremely low 
wages for years, with little review of the role that vocational 
rehabilitation agencies are intended to play in providing services for 
people to leave segregated workshops or subminimum wage positions. 
Also, there is little monitoring of the requirement that education 
agencies take into account each student's preferences or interests when 
transitioning people with disabilities from education into the 
workplace, or that vocational rehabilitation agencies have a role in 
this transition. The report is available at http://www.ndrn.org/images/ 
Documents/ Resources/Publications/Reports/Segregated-and-Exploited.pdf.
    Segregated employment and work at subminimum wages limit the 
ability of people with disabilities to become independent, self-
sufficient members of the community. Almost all employment options 
within segregated workshops are unskilled, low-wage jobs with few, if 
any, benefits, and few opportunities for advancement. Consistent 
isolation of people with disabilities from people without disabilities 
can hinder the proper development of socialization skills and self-
esteem. As the disability community has long understood, integration 
leads to increased satisfaction with their living and working 
arrangements and increased overall happiness, as well as improved 
adaptive behavior skills. Segregated workshops provide little, if any, 
benefit for people with disabilities, and the Federal Government should 
end Medicaid and other Federal funding of these programs.
    NDRN supports the increased use of supported and customized 
employment as a way to enhance the ability of people with disabilities 
to work in an integrated and competitive setting, based on an 
``employment first'' model. In such a model, vocational rehabilitation 
agencies and education officials working on transitioning of people 
with disabilities into employment focus first on finding the person an 
appropriate job, and then finding the services and supports necessary 
to make that employment a reality. Customized employment means 
individualizing the relationship between employees and employers in a 
way that meets the needs of both, based both on the strengths and 
interests of the employee and on the needs of the employer. A 
customized job may differ from the employer's standard job 
descriptions, but is based on actual tasks that are found in the 
workplace and meet the unmet needs of the employer. It may include 
employment through job carving, self-employment, or entrepreneurial 
initiatives.
    Examples of the successful use of customized employment services to 
successfully provide competitive employment to people with 
disabilities, at competitive wages, exist throughout the country. The 
Georgia Advocacy Office (the Georgia Protection and Advocacy agency) 
has worked with vocational rehabilitation agencies and employers to 
develop demonstrations of successful customized employment for people 
with disabilities. The State of Washington has also developed a 
supported employment program, and has established customized employment 
services as the primary use of day program and employment funds within 
the State.
    The Federal Government should, based on these and other examples, 
enact policies that support and encourage the spread of customized 
employment. Congress should work with the Department of Labor to ensure 
that vocational rehabilitation agencies have an active role in 
providing customized employment services to people with disabilities. 
Specifically, the term ``most significant disabilities'' should be 
federally defined and monitored to ensure that vocational 
rehabilitation agencies provide priority services to people with the 
most significant disabilities first, as required by law. The Federal 
Schedule A program should also be a tool to provide customized 
employment for people with disabilities, with some changes to better 
implement the program in a way that supports customized employment.
    Although Theodore Roosevelt proclaimed in his State of the Union 
Address on December 3, 1907, that ``the National government should be a 
model employer,'' Federal employment of people with disabilities 
continues to decline. Executive orders and goals are helpful, but are 
more effective if there are specific mandates and Federal agencies are 
held responsible for complying with directives. Statistics from the 
Equal Employment Opportunity Commission (EEOC) show that individuals 
with a disability in the Federal Government come into employment at a 
lower grade than non-disabled peers and experience little career 
advancement. Hiring and supervisory staff must understand the 
capabilities of each person with a disability and offer a full range of 
mentoring opportunities and support in order to assure career growth 
and advancement.
    NDRN is happy to continue working with the HELP Committee to 
improve employment services for people with disabilities and support 
greater transition to competitive, integrated employment, with the 
eventual goal of ending sub-minimum wage and sheltered workshops.
    Prepared Statement of the National Industries for the Severely 
                           Handicapped (NISH)
    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for the opportunity to submit this statement for the record for the 
September 15, 2011 roundtable on The Future of Employment for People 
with the Most Significant Disabilities.
    As the committee reviews strategies to identify the right spectrum 
of employment options to address the needs of workers with the most 
significant disabilities, NISH shares the committee's objectives to 
increase earnings over time and promote career goals. NISH and the 
AbilityOne Program are proud of our strong record of accomplishments in 
providing employment with opportunities for upward mobility to tens of 
thousands of Americans. For our employees--and their friends and family 
members--the AbilityOne Program plays a vital, irreplaceable role in 
their lives.
    The AbilityOne Program employs more than 47,000 Americans who are 
blind or have significant disabilities through government purchases of 
products and services provided by nonprofit agencies throughout the 
Nation. In 2010, NISH/AbilityOne nonprofit agencies employed 42,500 
employees who earned an average hourly wage of $11.23. Participation in 
the AbilityOne Program further enabled these agencies to employ an 
additional 81,500 individuals with significant disabilities outside of 
the Program.
    NISH/AbilityOne jobs are most often located in community-based, 
integrated settings including Federal buildings and military 
installations throughout our country. Additionally, a majority of these 
jobs provide wages that are generally higher than those found within 
the local communities and include health and other benefits. Employment 
through the AbilityOne Program empowers and encourages self-
determination by enabling people with significant disabilities to make 
informed choices about key aspects of their employment. Nonprofit 
agencies affiliated with the AbilityOne Program utilize multiple 
employment options beyond the Program including customized employment 
and supported employment to provide work to people with the most 
significant disabilities.
    It is also important to note that people with significant 
disabilities have a broad range of options with regard to their 
employment in the AbilityOne Program. These choices include competitive 
integrated employment, supported employment, and community group 
employment. The individual's desirable employment outcome should be 
selected through the informed choice of the individual with 
disabilities based on their unique talents, abilities, and interests, 
and not by others. NISH believes that we should continue to work 
collaboratively to ensure that a full range of employment options 
remains available for people with significant disabilities.
    We take great pride in knowing that employment opportunities 
created through the AbilityOne Program have increased substantially 
over the last two decades. During this same time period, employment for 
people with significant disabilities in the commercial sector has 
remained flat or decreased slightly, while employment for people with 
significant disabilities in the Federal Government still remains too 
low. AbilityOne has thus provided an increasingly critical source of 
employment for individuals with significant disabilities at a time when 
alternative options have been diminishing or disappearing.
    Together, AbilityOne and NISH have crafted dynamic strategic plans 
to address growing employment needs of our community. These plans 
include tactics that leverage state-of-the-art technologies and 
cutting-edge rehabilitation support services aimed at promoting upward 
mobility and independent community living goals for people with 
significant disabilities.
    As an example, Marlon Wilkins of northern Virginia found a career 
through the AbilityOne Program. Mr. Wilkins has restricted mobility and 
partial paralysis from Transverse Myelitis. Thanks to the AbilityOne 
Program, Mr. Wilkins began his career at Linden Resources, Inc. as a 
document clerk working on the GSA Office of Transportation Audits 
contract. Within a few years he was promoted, eventually landing a 
supervisory role on the GSA contract. As supervisor, Mr. Wilkins was 
given responsibility for managing 300,000 billing documents and 
supporting information from approximately 730 Federal reporting 
activities each month. In 2008, he was promoted to assistant project 
manager on Linden's AbilityOne Bureau of Alcohol, Tobacco and Firearms 
(ATF) project. Under his leadership, the team maintained a 99 percent 
accuracy rate despite a backlog that occurred during a move that 
relocated the project to a new site. For Mr. Wilkins, not to mention 
his employers and coworkers, the mission of the AbilityOne Program has 
been a factor to achieving success and he recently stated the 
following:

          ``The program has offered various opportunities for personal 
        growth. It's helped me advance to a project manager on one of 
        Linden's largest contracts. I think the key to my success has 
        been my drive, determination and most of all the managers I've 
        worked with in the past and present. They have helped me 
        improve my managerial skills. Without them giving me the 
        opportunity for success, I wouldn't be where I am today.''

    NISH looks forward to continuing to work with Congress, the 
Administration, and the disability community to find solutions through 
a variety of strategies to the unacceptably low rate of employment for 
people with significant disabilities.
    Thank you for considering our statement. Please feel free to 
contact John Kelly, Director of Government Affairs at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ce6e7e9e0e0f5cce2e5ffe4a2e3feeb">[email&#160;protected]</a> 
or (571) 226-4691 if you have any questions.
                Supplemental Statement of ServiceSource
    I appreciate the opportunity given to us by the U.S. Senate 
Committee on Health, Education, Labor, and Pensions (HELP) to give 
supplemental testimony in response to this important issue regarding 
employment for people with the most significant disabilities. The 
mission of ServiceSource is to provide exceptional services to 
individuals with disabilities through innovative and valued employment, 
training, habilitation, housing and support services. The not-for-
profit corporation has regional offices and programs in nine States and 
the District of Columbia, annually providing job training and support 
services to over 13,000 people with disabilities annually.
    ServiceSource operates a broad variety of employment and 
habilitation services, including job placement, group supported 
employment, center-based employment and community-based habilitation. 
As a leader in the disability field, ServiceSource develops strategic 
partnerships with community businesses, government entities and non-
profit leaders to help bridge the gaps for individuals with 
disabilities and create sustainable opportunities that benefit the 
entire community and result in greater independence for the individual.
    What follows is a personal life story from Mark Hall, 
ServiceSource, executive vice president, Corporate Development. A 
former business development and government relations manager within the 
California and northern Virginia aerospace industry, Mark re-directed 
his career 14 years ago when he joined our team here at ServiceSource. 
Mark and his wife Kathy have two children, including James, a 21-year-
old son who has been diagnosed with Down syndrome. Mark tells the story 
of how he and his family have undergone an evolutionary process of 
understanding that all people with disabilities deserve the opportunity 
to be provided options in terms of employment and support. On the 
following pages, Mark offers his hopes for his son, James, to obtain a 
quality employment outcome and a satisfying, meaningful life.
    James Hall and a Life Moving Forward--Including a Life History 
                             from His Dad!


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    My name is Mark Hall and my wife Kathy and I are the parents of two 
children, James and Elizabeth. James, the older of the two, was born in 
1989 in southern California and was immediately diagnosed with Down 
syndrome. To say the least, that diagnosis was an immediate life-
changing experience as neither Kathy nor I had any previous life 
experience with anyone with a significant disability.
    For the past 14 years, I have been an executive with ServiceSource 
of Alexandria, VA. ServiceSource is a nonprofit community 
rehabilitation program that today serves over 13,000 people with 
disabilities in nine States and the District of Columbia. I am 
responsible for business and program development for the organization, 
to enhance rehabilitation programs and develop new employment 
opportunities for people with disabilities.
    Although James and his disability were new to us when he was born, 
we knew we had to quickly get smart about Down syndrome. Both Kathy and 
I consider ourselves well-educated as we share three Masters Degrees 
between us. We knew right away that we would have to do our best to 
learn about treatments and therapies for our son. Soon after James was 
diagnosed, we began reading and attending conferences to learn more 
about Down syndrome. One early conference was a life-saver for James as 
we learned that all babies with Down syndrome should undergo a heart 
echocardiogram. James' pediatrician didn't believe that James had a 
heart condition that warranted this procedure, but he agreed to write a 
prescription when we insisted. The echocardiogram revealed that James 
had a significant heart defect that required open heart surgery before 
his first birthday. We learned early on that we held a new 
responsibility of advocating for James in his life.
    Our family moved to Virginia in 1991 when the decline of the 
southern California aerospace industry necessitated that I apply my 
business development capabilities in new markets outside of national 
defense. I was able to stay with my employer and move into a new 
position that involved business development and government relations 
for nuclear waste disposal and automated finger identification--a 
significant change from my defense background. An added benefit of that 
move meant that Kathy was able to leave the workforce and devote her 
time to being a mother and a homemaker to our two children.
    As an infant with Down syndrome in Fairfax County, James was 
provided very high-quality intervention services through the school 
system. Although he experienced significant delays in speech, mobility 
and eating skills, he was a happy and loving child. A highlight for him 
was learning to swim when he was 2 years old, a milestone that occurred 
before he could walk on his own. Today, one of James' favorite 
activities is swimming laps and jumping off the diving board.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Looking back, we were fortunate that James received his early 
intervention services at our neighborhood elementary school and over 
time we grew comfortable with the setting and the school staff. Because 
of his delays, we made the decision to hold back James from 
kindergarten until he was 6 years old. During his preschool years, by 
attending several conferences, we also learned about and became 
enthusiastic supporters of full inclusion for children with 
disabilities in our schools.
    As Kathy and I discussed kindergarten placement with the school 
system for James, it rapidly became apparent that if left to the school 
administrators, James would not be programmed into our neighborhood 
school, but instead would be bussed to another elementary school 5 
miles from our home. His placement would be a segregated special 
education classroom with other children with intellectual disabilities. 
This was the recommendation despite the broad range of special 
education services that were provided to children with learning 
disabilities at our neighborhood school. Both Kathy and I stood firm 
that James could and would receive special education services in an 
inclusive environment in our neighborhood school. He believed that it 
was his right to ride the school bus along with Elizabeth and other 
children on our block.
    To support that goal, and over a period of almost 2 years, we 
worked together with other parents and advocates in Fairfax County to 
promote more inclusive schools. We formed a parent advocacy group, 
Neighborhood School Now, and immediately our group sought community and 
media attention. We met with senior school officials and lobbied the 
school board. We were enthusiastic and vocal in our advocacy. Ever so 
slowly we made progress and we began to see the school system move 
toward more inclusion on a child-by-child basis.
    James' elementary school placement was in question until the Friday 
before the 1995 Labor Day weekend. Finally, that Thursday, the local 
community newspaper ran its weekly edition with a front-page story on 
James and our family and our desire for him to attend his neighborhood 
school. The article was well-researched and the reporter compellingly 
presented our case. That Friday morning after the newspaper story was 
published, I received a phone call from the principal at our 
neighborhood school and she told me that James would be welcome to 
attend her school the following Tuesday, the first day of the new 
school year. As far as we know, James Hall was the first child 
diagnosed with Down syndrome to be fully included in Fairfax County's 
school system.
    That first school day began a period where James was fully included 
with his peers without disabilities at our neighborhood school. He rode 
the bus to school with his sister and other neighborhood children--even 
though he continued to be offered special education transportation 
every year. He received support services in the classroom and only left 
class for additional speech and occupational therapy. Although there 
were some bumps along the road, James thrived in elementary school and 
had a very positive experience. He learned to read at the second-grade 
level and participated at an appropriate level in most of the 
curriculum. Besides school, James was active at our church and rose to 
the rank of Webelo in the Cub Scouts as a fully included member of his 
den and pack.
    Also during that period of time, in addition to my activities with 
Neighborhood Schools Now, I was nominated by the ServiceSource Chairman 
of the Board and my supervisor at my regular employer to join the 
ServiceSource Board of Directors. In 1996, I was nominated and selected 
for the Brookings Congressional Fellowship program that resulted in a 
9-month fellowship with Senate Majority Leader Trent Lott. By being in 
the right place at the right time, I volunteered to be assigned to the 
bipartisan team that was working on the reauthorization of the 
Individuals with Disabilities Act (IDEA) that was eventually signed 
into law in 1997. The opportunity for me to make a very small 
contribution to the passage of that legislation while meeting others 
with a commitment and passion for assisting people with disabilities 
was an experience that made me realize that I wanted to do something 
more with my life than worry about the future of nuclear waste 
disposal. After concluding my congressional fellowship and much to my 
employer's chagrin, I approached Janet Samuelson, president and CEO of 
ServiceSource, and suggested that she add me to her team to help with 
the organization's marketing effort. She agreed, offered me a job and I 
joined the ServiceSource staff in late 1997 and I have never regretted 
the move.
    On the home front, James progressed through elementary school 
without any major incidents or problems; we overcame the minor issues 
he faced with good planning and hard work. James did very well in 
elementary school, and some might say that he was a model student for 
full inclusion.
    However, when James finished elementary school and began his middle 
school and high school years, his educational experience grew more 
difficult. His transition to our neighborhood middle school was very 
traumatic and caused James a great deal of stress. James began acting 
out in the classroom and stopped talking both at home and at school. We 
witnessed a large increase in a variety of compulsive behaviors and 
routines, and James stopped eating at the table with the family during 
mealtimes. Although he had sometimes done this earlier, he greatly 
escalated tossing and throwing nearby items when put into environments 
or transitions he did not understand. He regressed in his life skills 
and he obviously was not a happy young man. Eventually Kathy and I 
recognized that these issues were not getting better through behavior 
modification and other strategies, so we began seeing Dr. George Capone 
at the Kennedy Krieger Institute located at Johns Hopkins in Baltimore, 
Maryland.
    All attempts to have James fully included ceased in fall of 2005 
when James began attending Chantilly High School. The school offered a 
traditional segregated special education program and although 
philosophically was not our first choice for James, he responded well 
and after his first year, he found a routine and began to settle down. 
Also while at high school, he has had the opportunity to participate in 
a variety of work experiences including working at a hotel laundry, a 
computer recycling facility, a thrift store and some mail delivery 
work. He has enjoyed each of those experiences.
    Since he was 18, James has been receiving SSDI payments. The local 
community service board has identified him as Medicaid waiver eligible. 
In general, he has no comprehension of money and it is not a motivator 
for him, so wage rates (including minimum wage) are not an issue as 
Kathy and I are committed to meeting his needs. He is non-verbal and 
often exhibits inappropriate behaviors including throwing items when he 
is faced with a disappointment or experiences rapid change. James also 
requires coaching to complete life's basic tasks including personal 
hygiene, eating and getting dressed.
    Today, James is 21 years old and is a nice young man with a wry 
sense of humor. He is now in his last year in the Fairfax County school 
system, where he has been receiving services since he was 2 years old. 
Over the past few years and as part of his school curriculum, he has 
been receiving transition planning services. James' sister, Elizabeth, 
is a 20-year-old Junior at the College of William and Mary and she 
helps keep track of James too. For the foreseeable future, Kathy and I 
expect James to live with us at our home.
    Our family is thinking about James' future and we are hopeful that 
he can be served by ServiceSource as he moves into adulthood.
    As James has grown into becoming a young man, both Kathy and I have 
modified our thoughts and feelings about full inclusion for him as we 
realize his level of ability and what he wants in his own life. We are 
very interested in James becoming a contributing adult and that he 
continues to develop a feeling of accomplishment and self worth. 
However, as James' parents, we are mindful that James will require a 
high degree of ongoing supports in order for him to work and live. For 
the future, we are hopeful that James can develop a lifestyle that 
brings him happiness, safety and a sense of well-being. As James' legal 
guardians, Kathy and I are seeking an employment outcome for him that 
will keep James positively occupied and provide him with a fulfilling 
life. At this point in time, we anticipate that James will not be 
competitively employable, and that he will need continued ongoing 
supports to function as an adult.
    I fully realize that my thoughts about inclusion have evolved from 
my thinking when James was entering kindergarten. Whereas, I once was a 
loud and perhaps obnoxious proponent for full inclusion, I am now more 
moderate in my thinking. I recognize that inclusion and competitive 
community employment may not be the best outcome for all individuals 
with disabilities--some people require a greater level and more 
intensive support to succeed. As Kathy and I work together with James 
and the many people that provide him with support, we are mindful that 
it is best to have a broad range of options to consider. Those options 
for James might include center-based or day habilitation services as 
well as group-supported or community-based employment.
    As all parents of children with disabilities are prone to do, we 
worry about James' long-term future when we are gone. We do have hope 
that James will continue to grow in his skill development and will find 
an employment outcome that will provide him with a sense of safety and 
well-being. We are excited about the changing world for people with 
disabilities. Almost every day we learn about new opportunities and 
accomplishments for people with disabilities. We are confident that 
over time, James will have a variety of opportunities for him to 
experience a happy and productive life. We love James and are very 
grateful that he is part of our lives.
Prepared Statement of Laura Walling, Director, Advocacy and Legislative 
               Affairs, Goodwill Industries International
    Mr. Chairman, Ranking Member, and members of the committee, on 
behalf of Goodwill Industries International, Inc., I appreciate this 
opportunity to submit a written statement for the record on the 
important issue of the future of employment of people with significant 
disabilities. Goodwill Industries applauds the committee for its 
interest and leadership in examining this topic. Goodwill believes 
that work is a valued activity that allows people to participate in the 
mainstream of life. Sadly, job opportunities for people with 
significant disabilities are limited, and they would be even more 
limited if not for special provisions provided in Federal law and 
center-based programs.
    Goodwill Industries is comprised of 158 independent, community-
based Goodwill agencies in the United States. Goodwill's network of 
local agencies provided employment training, job placement services and 
other community services to nearly 2.5 million people last year. Over 
240,000 of those individuals reported to have a disabling condition. In 
addition, 170,000 people obtained meaningful employment as a result of 
Goodwill career services programs. Collectively, these employees earned 
$2.7 billion in salaries and wages and contribute to their communities 
as productive, taxpaying citizens.
    Goodwill agencies help to fund programs by selling donated clothes 
and other household items at more than 2,500 donated goods retail 
stores and online at shopgoodwill.com. Many people with disabilities 
work in Goodwill stores. In addition, Goodwill agencies employ people 
with disabilities and other employment challenges in the delivery of a 
wide variety of quality commercial services that are contracted to 
community partners, business, and government. People employed by 
Goodwill contracting services work in industries including customer 
relations, administrative support, document management, office 
administration, packaging and assembly, food service preparation, 
custodial services, and groundskeeping.
    Over 75 community-based Goodwill agencies collectively engage more 
than 7,000 individuals with disabilities to fulfill more than 350 
AbilityOne contracts, while offering those workers job coaching and 
additional skills training. The AbilityOne program is the largest 
provider of employment opportunities for those who are either blind or 
have significant disabilities, employing approximately 46,000 people 
through more than 600 nonprofit agencies.
    The workforce development services provided to people with 
disabilities include: intake/eligibility; work assessment/evaluation; 
job readiness/soft-skills training/work adjustment; occupational skills 
training; on-the-job training (both inside and outside of Goodwill); 
intensive placement services sessions; supported employment; and e-
learning among others.
                           employment options
    During the discussion, Chairman Harkin asked the panel, ``What is 
the right spectrum of employment options that will address the needs of 
workers with the most significant disabilities? '' Goodwill believes 
that all individuals should have the choice to work in the employment 
setting that they desire and that no one should be denied the 
opportunity to work and receive the intangible benefits of work--
independence, participation in society, dignity, self-esteem, and sense 
of accomplishment among others. When considering the full range of 
options for individuals, center-based employment should not be viewed 
as a place of last resort. For some individuals, center-based 
employment may be an appropriate option that they and their guardians 
should be allowed to consider.
                         employment strategies
    A second topic raised by Chairman Harkin pertained to employment 
strategies. Specifically the panel was asked, ``What are the most 
effective and proven strategies to help workers achieve the highest pay 
and advance in their careers? '' With congressional leadership, 
Goodwill Industries believes that we can and must move forward to 
eliminate the barriers that prevent people with disabilities from 
participating in the workforce. In addition to exposing individuals to 
all of the employment options before them, strong relationships with 
employers are important to achieve the goal of increasing the number of 
people with significant disabilities in the workforce. The autonomous, 
community-based structure of Goodwill Industries allows for agencies to 
have strong relationships with local employers, resulting in increased 
opportunities for individuals served to find a job and advance in 
careers.
    Goodwill Industries has put forth specific recommendations in the 
past related to increased oversight and enforcement of the Fair Labor 
Standards Act and the great need to reauthorize the Workforce 
Investment Act. As producers within the AbilityOne program, many 
Goodwill agencies have been early adopters of the AbilityOne Quality 
Work Environment (QWE) initiative. QWE is, ``a strategy through which 
key stakeholders in the AbilityOne Program will collaborate to identify 
and implement best practices in the [nonprofit] work environments that 
will enable people who are blind or have significant disabilities to 
achieve their maximum employment potential through opportunities to do 
the work of their choice; a strategy to empower AbilityOne producing 
NPAs to make improvements in key areas of the work environment, thus 
strengthening experience, productivity, and opportunity for all.
                               conclusion
    Thank you for your continued leadership on this issue. We look 
forward to working with Congress to consider legislative changes that 
will increase employment opportunities for people with disabilities.
                                 ______
                                 
                                        September 25, 2011.
Senator Tom Harkin,
731 Hart Senate Building,
Washington, DC 20510.

    Dear Senator Harkin, I would like to thank you for the opportunity 
to participate in your roundtable discussion on September 15, 2011 
regarding employment for persons with severe disabilities.
    As you recall I am a parent of a young man who has severe 
intellectual disabilities. When Josh was young, our goal for him was to 
live in his own home and to work in our community. Three and a half 
years ago, Josh moved into his own home with 24 hour support through 
the Intellectual Disability Title IX waiver program. He accesses the 
Consumer Choice Option program that allows me to manage his services, 
thus allowing a great deal of flexibility for his services. Josh is 
having a great deal of success and he is very happy and content with 
his life. Josh spends his days at Tenco, our local sheltered workshop 
and he participates in the day habilitation program. Due to the level 
of supervision that Josh requires, he is not able to work even at the 
sheltered workshop. Almost a year ago, I was able to convince his team 
to allow me to hire someone through the Consumer Choice Options program 
to allow Josh to work a few hours per week while at Tenco. He shreds 
paper with the assistance of his one-on-one staff person. Without an 
increase in his budget, he can only work a few hours per week. The few 
hours that Josh does work, means a great deal to him and as a result, 
his behaviors have improved and he is less anxious and more content. 
Josh is only able to work as a result of the flexibility that is 
allowed through the Consumer Choice Option program and adding to his 
budget would allow him the opportunity to work additional hours.
    My goal has always been for Josh to work in our community and I 
would love to see that happen. I have always been told that Josh is not 
eligible for supported employment services as he would need the service 
long term. I just don't see how my goal of Josh working in our 
community can ever happen due to the level of supervision that he 
requires. In our community those individuals who do participate in 
supported employment services are generally only able to work 4 to 6 
hours per week. Josh spends 30 hours per week at Tenco and he is 
surrounded by friends and a good support team. He would not be happy 
only having something to do 4 to 6 hours per week.
    Until Supported Employment service guidelines are changed and 
become more flexible, sheltered workshop programs need to remain in 
place to allow individuals with severe intellectual disabilities to be 
involved in a program that allows them activities to occupy their day.
    Again, thank you for the opportunity to be a part of your 
roundtable discussion. It was a once in a life time opportunity for a 
long term advocate and I thoroughly enjoyed the experience.
            Best Regards,
                                              Deb Pumphrey,
                                      Parent Advocate, Ottumwa, IA.
                                 ______
                                 
Consortium of Citizens with Disabilities Employment 
                                               and 
                               Training Task Force,
                                                September 29, 2011.
Hon. Tom Harkin, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Mike Enzi, Ranking Member,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Senators Harkin and Enzi: On behalf of the Consortium of 
Citizens with Disabilities Employment and Training Task Force, we 
appreciate your sponsorship of the September 15, 2011 roundtable on The 
Future of Employment for People with the Most Significant Disabilities. 
The Consortium of Citizens with Disabilities is a coalition of more 
than 130 national disability-related organizations working together to 
advocate for national public policy that ensures full equality, self-
determination, independence, empowerment, integration and inclusion of 
children and adults with disabilities in all aspects of society.
    Because the record for submission of comments was only recently 
opened to the general public beyond the roundtable participants, we 
have not had time to produce comments specifically tailored to the 
particular issues addressed on September 15. However, our task force 
was asked to testify before the House Ways and Means Social Security 
and Human Resources Subcommittees on September 23d on Social Security 
disability program work disincentives. We believe that the 
recommendations provided in that testimony may be of use to your 
committee and attach it with this cover email for your information.
    The CCD Employment and Training Task Force believes that meaningful 
employment represents one of the best opportunities for people with 
disabilities as they work toward becoming a productive and independent 
member in their community. To that end, we applaud your continued 
efforts to address the deplorable state of workforce participation 
among Americans with disabilities.
    Our task force believes that employment of individuals with 
disabilities requires a comprehensive approach that addresses all 
aspects of the service system to ensure that the vision of integrated, 
competitive employment is fostered and promoted. Ongoing staff 
development, among systems staff and service providers, is vital so 
that they not only embrace this vision, but also have the technical 
knowledge to implement it. A holistic approach also requires addressing 
a wide range of other issues: outreach to and engagement with 
employers, service monitoring and quality assurance, engagement of 
individuals and families, the availability of benefits counseling that 
supports community employment, transportation, inter-agency 
collaboration with public vocational rehabilitation, to name just a 
few. Strong transition services from school-to-work, with a clear focus 
on community employment are also critical.
    Our specific recommendations pertain to urgently needed renewals of 
several critical work incentives programs and improvements that can be 
made to the Ticket to Work and Work Incentives Improvement Act 
(TTWWIIA). While we recognize that much of TTWWIIA falls within the 
jurisdiction of another committee, we also know that you understand the 
necessity for breaking down the unnecessary silos that exist in 
Washington that create impediments to true progress in advancing 
employment of people with disabilities.
    We are also concerned about maintaining and enhancing the health 
care coverage that has been provided to thousands of working people 
with disabilities through the Medicaid Buy-Ins, extension of premium 
free Medicare and provisions of the Affordable Health Care Act (ACA). 
The development of regulations implementing the health exchanges and 
essential benefits packages under the ACA could determine whether 
progress made to date is advanced or undermined and we urge your 
attention to this critical piece of the disability work incentives 
puzzle.
    If the HELP Committee is truly committed to removing barriers to 
work for people with significant disabilities, then it must move 
Congress to address those impediments that continue in Social Security 
Title II and Title XVI programs. Social Security disability 
beneficiaries continue to grapple with the complexities of the benefit 
system, with the fear of sudden termination of benefits without an easy 
return to the rolls if their condition necessitates that, and with 
outmoded asset and income disregards that dampen initiative and punish 
success.
    Finally, there are disability tax credits and deductions that need 
to be modernized and business tax incentives that must be renewed if 
people with disabilities are to enter the mainstream of the American 
labor force. As Congress turns its attention to reform of the tax code, 
we urge you not to forget changes that can aid the employment of people 
with disabilities.
    We thank you for your attention to these comments and welcome the 
opportunity to support your committee in its efforts to advance 
economic self-sufficiency for Americans with disabilities.

                                       Cheryl Bates-Harris,
                                                    Co-chair, NDRN.

                                            Alicia Epstein,
                                                    Co-chair, NISH.

                                             Susan Goodman,
                Co-chair, APSE and National Down Syndrome Congress.

                                            Charlie Harles,
     Co-chair, International Association of Business, Industry and 
                                                    Rehabilitation.

                                              Susan Prokop,
                           Co-chair, Paralyzed Veterans of America.

                                              Paul Seifert,
          Co-chair, Council of State Administrators for Vocational 
                                                    Rehabilitation.

    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
